   October 17, 2002




Acquisition

Implementation of Interoperability
and Information Assurance Policies
for Acquisition of DoD Weapon
Systems
(D-2003-011)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
C3I                   Command, Control, Communications, and Intelligence
C4I                   Command, Control, Communications, Computers, and
                         Intelligence
CRD                   Capstone Requirements Document
DISA                  Defense Information Systems Agency
GIG                   Global Information Grid
JCPAT                 Joint Command, Control, Communications, Computers, and
                         Intelligence Program Assessment Tool
JITC                  Joint Interoperability Test Command
KPP                   Key Performance Parameter
ORD                   Operational Requirements Document
TEMP                  Test and Evaluation Master Plan
USJFCOM               U.S. Joint Forces Command
         Office of the Inspector General of the Department of Defense
Report No. D-2003-011                                                  October 17, 2002
   (Project No. D2002AE-0009)

                    Implementation of Interoperability and
                      Information Assurance Policies for
                     Acquisition of DoD Weapon Systems

                                Executive Summary

Who Should Read This Report and Why? Policy makers, milestone decision
makers, combat and materiel developers, and testers responsible for interoperability and
information assurance requirements of DoD weapon systems should be interested in this
report. This report addresses the importance of adhering to DoD interoperability and
information assurance policies to reduce the risk of DoD weapon systems not being
interoperable and able to exchange information in a secure manner with other DoD and
allied systems.

Background. This report is the first in a series of reports on the implementation of
interoperability and information assurance policies for the acquisition of DoD weapon
systems. Other reports in the series will address how effectively the Army, Navy,
Air Force, and Unified Commands implement those policies. Interoperability and
information assurance policies include the Joint Vision 2020 and the Global Information
Grid capstone requirement document.

Results. The Department faces a difficult challenge in achieving interoperability
between DoD systems and needs congruent and effective mechanisms to measure and
oversee its progress. Without consistent guidance that makes combat and materiel
developers analyze programs using an operational architecture view, the DoD is at risk
of developing systems that operate independently of other systems and of not fully
realizing the benefits of interoperable DoD systems to satisfy the needs of the
warfighter as outlined in Joint Vision 2020. Implementing a process that timely
integrates revisions for interoperability and information assurance policies into the
applicable DoD and Chairman of the Joint Chiefs of Staff interoperability and
information assurance policies; establishing criteria and procedures for placing DoD
systems on the Interoperability Watch List; comparing the operational requirements
documents (ORDs) of proposed DoD systems against the other ORDs in the related
mission area architecture; updating the Joint Command, Control, Communications,
Computers, and Intelligence Program Assessment Tool (JCPAT) database and
controlling user access; and defining and implementing a plan to test critical operational
issues for DoD systems in the Global Information Grid should better enable DoD to
implement interoperability and information assurance policies. (See the Finding section
of this report for the detailed recommendations.)

Management Comments and Audit Response. We received comments from the
Director, Interoperability, Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Director, Architecture and Interoperability, Office of
the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) (ASD[C3I]); the Inspector General, Office of the Commander, U.S. Joint
Forces Command (USJFCOM); the Director, Operational Test and Evaluation; the
Inspector General, Defense Information Systems Agency (DISA); the Director, Joint
Staff; and the Co-Chair, Interoperability Senior Review Panel.*

The Director, Interoperability neither concurred nor nonconcurred with the
recommendation concerning timely revisions of interoperability and information
assurance policies; however, he suggested revisions to the recommendation, which we
made. The Director, Architecture and Interoperability concurred with the
recommendation concerning timely revisions of interoperability and information
assurance policies and neither concurred nor nonconcurred with the recommendation
concerning the implementation of the Interoperability Watch List. The Inspector
General, USJFCOM stated that USJFCOM neither concurred nor nonconcurred with
the recommendation concerning the comparison of ORDs; however, he suggested
revisions to the recommendation, which we made. The Inspector General added that
the USJFCOM is currently not funded or resourced to perform the in-depth review of
the ORD, as recommended. The Director, Operational Test and Evaluation partially
concurred with the recommendations concerning the implementation of the
Interoperability Watch List and the testing of critical operational issues. The Director,
Joint Staff concurred with the report, subject to the incorporation of his comments on
the recommendations concerning interoperability and information assurance policies,
the Interoperability Watch List, and limiting JCPAT access. The Director also stated
that the DoD is not effectively structured to effect the organizing, training, and
equipping of joint capabilities. Further, he stated that a joint process was not
established to delineate who is responsible and accountable for developing and
acquiring joint command and control systems and integrating capabilities. The
Co-Chair, Interoperability Senior Review Panel agreed with the need for timely
revisions of interoperability and information assurance policies, the implementation of
the Interoperability Watch List, the comparison of ORDs, the use of qualification
analysis and predictive tools, and the testing of critical operational issues. Further, the
Co-Chair supported the position of the Joint Staff regarding the JCPAT. (See the
Finding section of this report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.)

Because we received varied comments from the senior leadership of the Interoperability
Senior Review Panel to the recommendations, often without a coordinated corrective
action plan, we redirected those recommendations to the Co-Chair, Interoperability
Senior Review Panel and request that he comment on how the Panel will implement a
process that timely integrates revisions for interoperability and information assurance
policies; will establish a clearly defined process and criteria for the Interoperability
Watch List; will employ a process and resources, including quantification analysis and
predictive tools, to compare the ORDs of proposed DoD systems against the other
ORDs in the related mission area architecture; will update or archive JCPAT
documents; and will limit JCPAT access. Therefore, we request that the Co-Chair,
Interoperability Senior Review Panel provide comments on this final report by
December 16, 2002.




*
 The Interoperability Senior Review Panel is composed of senior leaders from the Offices of the Under
Secretary of Defense for Acquisition, Technology, and Logistics; the ASD(C3I); the Joint Staff; the
USJFCOM; the Director for Programs, Analysis, and Evaluation; and the Director, Operational Test and
Evaluation.

                                                 ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               3

Finding
     Adequacy of the Interoperability and Information Assurance Process       4

Appendixes
     A. Scope and Methodology                                                27
           Prior Coverage                                                    28
           Other Matters of Interest                                         28
     B. Definitions of Technical Terms                                       30
     C. Interoperability Action Plan of the Under Secretary of Defense for
           Acquisition, Technology, and Logistics for Command and
           Control Systems                                                   36
     D. Global Information Grid                                              38
     E. Multiple Factors Affecting the Implementation of Interoperability
           Requirements in the Weapon System Development Process             40
     F. Interoperability and Information Assurance Policies                  43
     G. DoD System Interoperability Requirements Review Process              50
     H. Organizations with Access to the Joint Command, Control,
           Communications, Computers, and Intelligence Program
           Assessment Tool                                                   53
     I. Response to Office of the Secretary of Defense and Defense Agency
           Comments Concerning the Report                                    55
     J. Report Distribution                                                  64
Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   67
     Assistant Secretary of Defense (Command, Control, Communications,
        and Intelligence)                                                    69
     U.S. Joint Forces Command                                               73
     Director, Operational Test and Evaluation                               79
     Defense Information Systems Agency                                      81
     Joint Staff                                                             85
     Interoperability Senior Review Panel                                    91
Background
This report is the first in a series of reports on the implementation of
interoperability and information assurance policies for the acquisition of DoD
weapon systems. This report addresses the implementation of those policies by
the Office of the Secretary of Defense and Defense agencies, the interoperability
requirements process, and the oversight thereof. Subsequent reports will
discuss the adequacy of interoperability key performance parameters (KPPs) and
the interoperability certification process for DoD systems, including national
security systems in the Army, Navy, Air Force, and unified combatant
commands. Appendix B provides definitions of technical terms used in this
report.

Chairman of the Joint Chiefs of Staff Testimony on the President’s
Proposed Defense Program for FYs 2003 to 2007. On February 5, 2002,
General Myers, the Chairman of the Joint Chiefs of Staff, testified before the
U.S. Senate Committee on Armed Services on interoperability. General Myers
described how Navy, Air Force, and Marine Corps systems shared information
to execute combat operations in Afghanistan. He testified that:
           To fulfill our range of commitments and protect our global interests,
           we must make the investments necessary to maintain the quality of
           our force while preparing for future challenges of the 21st century.
           The best means of accomplishing these goals, in my mind, are to,
           one, improve our joint war-fighting capabilities, and two, to
           transform the armed forces of America into a 21st century force.

General Myers further testified that DoD should conceive, design, and produce
new systems with joint warfighting requirements in mind. DoD needs to view
new systems as interchangeable modules that can be used in any situation and in
any command arrangement. General Myers believed the area with the greatest
potential is in command, control, communications, computers, intelligence,
surveillance and reconnaissance.

Quadrennial Defense Review. On September 2001, the Quadrennial Defense
Review report stated that achieving the objectives of the defense strategy
requires the transformation of the U.S. Armed Forces. Two of the six critical
operational goals for the DoD transformational efforts relate to information
assurance and interoperability.

       •   Assuring that, in the face of attack, information systems conduct
           effective information operations.

       •   Leveraging information technology and innovative concepts to
           develop interoperable, joint command, control, communications,
           computers, intelligence, surveillance, and reconnaissance
           architectures and capability that includes a tailorable joint operational
           picture.




                                        1
Additionally, as stated in the Quadrennial Defense Review report,
           To support joint and combined command and control and to enable a
           common relevant operational picture of the battlespace, the
           Department will enhance end-to-end interoperable communications for
           secure planning and operations. These communications will provide
           shared situational awareness and integration of joint fires, maneuver,
           and intelligence. They must be interoperable across all components
           and tailorable for coalition operations with other countries.

Joint Vision 2020. On May 30, 2000, the Chairman of the Joint Chiefs of Staff
signed Joint Vision 2020, which addressed the concept, design, and production
of systems with joint warfighting requirements. Joint Vision 2020 describes in
broad terms a future joint force whose operational capabilities will be required
to succeed across the full range of military operations and accomplish missions
in the year 2020 and beyond. Joint Vision 2020 states that interoperability is a
mandate for the future joint force especially for communications, common
logistics items, and information sharing. Information systems and equipment
that enable a common, relevant operational picture must work from shared
networks that can be accessed by any appropriately cleared participant. As an
example, Appendix C details the action plan that the Director for
Interoperability, Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics is planning to execute for command and control
systems.

Another tenet of Joint Vision 2020 is to attain information superiority.
Information superiority gets the right information to the right people, at the right
time, and in the right format, resulting in a vastly improved shared
understanding of the situation. Joint Vision 2020 emphasizes the following
information superiority goals:

       •   implement effective programming for establishing information
           assurance and critical infrastructure protection, and

       •   build a coherent Global Information Grid (GIG).

Global Information Grid. In November 1999, the Joint Chiefs of Staff
assigned the Commander, U.S. Joint Forces Command (USJFCOM) the task of
preparing the capstone requirements document (CRD) for the GIG. On
August 30, 2001, the Joint Requirements Oversight Council approved the CRD,
which describes the overarching information capability requirements for a
globally interconnected, end-to-end, interoperable, and secured
system-of-systems that would support the Secretary of Defense, warfighters,
DoD personnel, the intelligence community, policy makers, and non-DoD users
at all levels involved in military and nonmilitary operations. Appendix D
provides a detailed description of the GIG.

Common Interoperable and Secure Systems. To attain Joint Vision 2020 and
GIG compliance and reduce the risk of building stand-alone or “stovepipe”
systems, the Defense agencies and the Military Departments are required to
develop and retrofit DoD systems into common interoperable and secure
systems. Information assurance is required to protect, defend, and ensure the

                                        2
     availability of information and information systems. Interoperability is required
     to provide the ability of systems to exchange data effectively. Together,
     information assurance and interoperability comprise the basis for achieving
     network centric warfare, information superiority, decision superiority, and full
     spectrum dominance, as defined in Joint Vision 2020. The DoD faces a
     complex challenge in achieving an effective coexistence between interoperability
     and information assurance within the context of Joint Vision 2020 and the GIG.
     Appendix E shows the multiple factors affecting the implementation of
     interoperability requirements in the weapon system development process.

Objectives
     The primary audit objective was to evaluate whether the Office of the Secretary
     of Defense and the Defense agencies were effectively implementing DoD
     interoperability and information assurance policies. Subsequent reports will
     discuss the adequacy of interoperability KPPs and the interoperability
     certification process for DoD systems, including national security systems in the
     Army, Navy, Air Force, and unified combatant commands. See Appendix A
     for a discussion of the audit scope and methodology, and prior coverage related
     to the audit objectives.




                                         3
                     Adequacy of the Interoperability and
                     Information Assurance Process
                     The Department faces a difficult challenge in achieving interoperability
                     between DoD systems and needs congruent and effective mechanisms to
                     measure and oversee its progress. The Department did not have
                     fundamental mechanisms that are consistently applied or established
                     because:

                              •    The Assistant Secretary of Defense (Command, Control,
                                   Communications, and Intelligence) (ASD[C3I]) had
                                   interoperability policies in the 1992 version of DoD
                                   Instruction 4630.8, “Procedures for Compatibility,
                                   Interoperability, and Integration of Command, Control,
                                   Communications, and Intelligence (C3I) Systems,” that were
                                   inconsistent with Chairman of the Joint Chiefs of Staff
                                   Instruction 6212.01B, “Interoperability and Supportability of
                                   National Security Systems, and Information Technology
                                   Systems,” May 8, 2000. During the audit, on May 2, 2002,
                                   DoD updated DoD Instruction 4630.8, “Procedures for
                                   Interoperability and Supportability of Information Technology
                                   (IT) and National Security Systems (NSS),”1 to rectify the
                                   policy implementation inconsistencies in the earlier version.

                              •    The Commander, USJFCOM did not analyze interoperability
                                   and information assurance requirements in the operational and
                                   system architectures for DoD systems as part of the
                                   interoperability certification process2 for operational
                                   requirements documents (ORDs).3

                              •    The Director, Command, Control, Communications, and
                                   Computers Systems Directorate (J-6) (the Joint Staff J-6) had
                                   not updated the Joint Command, Control, Communications,
                                   Computers, and Intelligence Program Assessment Tool
                                   (JCPAT) database to include all interoperability certifications;
                                   Test and Evaluation Master Plans (TEMPs); and Command,
                                   Control, Communications, Computers, and Intelligence (C4I)
                                   support plans for DoD systems.


1
    Title of instruction changed as a result of the update.
2
 Two interoperability certifications exist; the first for requirements and supportability documents and the
second for interoperability certification testing. The Chairman of the Joint Chiefs of Staff (J-6) and the
Joint Interoperability Test Command are responsible for requirements and supportability document
certification and for interoperability certification testing, respectively.
3
 The updated DoD Instruction 4630.8 assigned USJFCOM with the responsibility to collect, consolidate,
and prioritize the information technology and national security systems’ interoperability and
supportability requirements for emerging and fielded Joint Task Force systems using input from Defense
agencies and Military Departments.


                                                         4
                    •   The Chairman of the Joint Chiefs of Staff; the Under
                        Secretary of Defense for Acquisition, Technology, and
                        Logistics; the ASD(C3I); and the Commander, U.S. Joint
                        Forces Command, in coordination with the Director,
                        Operational Test and Evaluation, had not established criteria
                        for the Defense agencies and the Military Departments to
                        place DoD systems on the Interoperability Watch List.

                    •   The Director, Operational Test and Evaluation had not
                        completed a plan to include testing of critical operational
                        issues addressing interoperability and information assurance
                        in the Global Information Grid.

            Without consistent guidance that makes combat and materiel developers
            analyze programs using an operational architecture view, the DoD is at
            risk of developing systems that operate independently of other systems
            and of not fully realizing the benefits of interoperable DoD systems to
            satisfy the needs of the warfighter as outlined in Joint Vision 2020.
            However, the recent DoD revisions of policies in achieving
            transformation through interoperability may have consolidated some
            fragmented activities.

Interoperability and Information Assurance Policies
     The following provides an overview of DoD and Joint Staff policies concerning
     interoperability and information assurance. Appendix F provides a detailed
     discussion of the policy.

     Interoperability Policy. The DoD and Joint Staff established policy guidance
     concerning interoperability during the requirements and acquisition processes.

              DoD Policy. The policy requires that joint, combined, coalition, and
     interagency missions must be supported through interoperable information
     technology and national security systems in global operations across the
     peace-conflict spectrum. All information technology and national security
     systems for U.S. Forces use are to be considered for use by joint, allied, and
     other U.S. Government departments and agencies. Information technology and
     national security systems’ interoperability and supportability requirements are to
     be identified through the mission area integrated architectures. Interoperability
     requirements are required to be managed, evaluated, and reported throughout
     the life of the system. All DoD acquisition category programs will use a C4I
     Support Plan to document interoperability requirements. Additionally,
     interoperability and supportability requirements are required to be balanced with
     the need for information assurance.

            Joint Staff Policy. The policy states that interoperability KPPs in an
     ORD define the level of interoperability for the proposed system and that ORDs
     must be certified before each milestone, regardless of acquisition category, for
     conformance with joint national security systems and interoperability standards.


                                         5
           Failure to meet a KPP can be cause for the system to be reevaluated or the
           program to be reassessed or terminated. In addition, USJFCOM is to provide
           comments to the Joint Staff J-6 on interoperability issues for all acquisition
           category programs to ensure that each ORD contains information exchange
           requirements and operational views. Combatant commanders,4 Military
           Departments, and DoD agencies are to incorporate interoperability testing into
           their overall testing plans in coordination with DISA and the Joint
           Interoperability Test Command (JITC). Further, JITC is to certify test results
           for all interoperability system tests. The Joint Staff J-6 issues an interoperability
           system validation memorandum based on the testing reports from the JITC.

           Information Assurance Policy. The DoD and Joint Staff established policy
           guidance concerning information assurance during the acquisition process.

                   DoD Policy. The policy established the DoD Information Technology
           Security Certification and Accreditation Process (the Process) for security
           certification and accreditation of unclassified and classified information
           technology. The Process sets forth the activities and management structure to
           certify and accredit information technology systems that will maintain the
           security posture of the Defense Information Infrastructure. Further, the
           Director, Operational Test and Evaluation is not to approve test plans unless
           they contain a well-defined strategy for addressing information assurance
           concerns.

                   Joint Staff Policy. The policy states that information assurance is
           required for all DoD systems that are used to enter, process, store, display, or
           transmit DoD information, regardless of classification or sensitivity.
           Information assurance requirements are to be codeveloped and coevolved with
           those for information interoperability. The policy also states that information
           assurance is critical to the military’s ability to conduct warfare and is the
           responsibility of all modern warfighters; a risk assumed by one organization, at
           any organization level, can be a risk imposed on all organizations. Therefore,
           the requirement for implementing information assurance applies at all DoD
           organization levels. Further, information assurance for DoD information
           systems and networks requires a strategy that integrates the capabilities of
           people, operations, and technology to ensure survivability and mission
           accomplishment.

Evaluation of Interoperability and Information Assurance
  Policy
           The ASD(C3I) had interoperability policies that were inconsistent with those of
           the Chairman of the Joint Chiefs of Staff. Appendix F identifies the
           interoperability and information assurance policies that the Defense agencies and
           the Military Departments must implement. Appendix G provides a flow chart of
           the interoperability requirements review process for DoD weapon systems.

4
    Formerly commanders-in-chief.


                                                 6
Inconsistent Policy. DoD had issued at least six separate policy documents for
interoperability and at least three separate policy documents for information
assurance because DoD dispersed authority for interoperability and information
assurance policy to various organizations within the Office of the Secretary of
Defense. Specifically, directorates in the offices of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the ASD(C3I); the
Director, Operational Test and Evaluation; and the Joint Staff had established
interoperability and information assurance policies and instructions that apply to
DoD. The DoD interoperability and information assurance policies and
instructions describe processes for reviewing system interoperability
requirements during the requirement generation stage and require that the
interoperability of system architectures be tested to ensure that information
technology and national security systems communicate.

During the audit, ASD(C3I) updated DoD Directive 4630.5, “Interoperability
and Supportability of Information Technology (IT) and National Security
Systems (NSS)” and DoD Instruction 4630.8 on January 11 and May 2, 2002,
respectively, because the outdated DoD Directive and Instruction had not been
updated for 10 years. Both updated policies canceled the previous versions
signed in 1992. Updates in 2002 to the DoD Instruction resolved the
inconsistencies and synchronized policies and instructions for the first time.

Information Assurance Policy. The level of information assurance controls
varied throughout the DoD because no standard methodology existed to measure
the progress of information assurance, and no DoD-wide information security
plan was implemented to protect and defend the DoD systems and networks,
according to prior Inspector General of the Department of Defense reviews.
The Inspector General of the Department of Defense in Report No. D-2001-182,
“Information Assurance Challenges,” stated that until DoD implements a
consolidated policy approach to information assurance and fully incorporates
information assurance requirements into its ongoing architectural efforts,
security policies and procedures will continue to be fragmented, and DoD
Components will continue to provide varied and inconsistent levels of
information assurance. Consolidating information assurance policy would
eliminate the need to keep all other DoD information assurance policies updated.
We will review specific requirements in upcoming audits, as discussed in
Appendix A, “Other Matters of Interest.”

Revisions to Guidance. When the Chairman of the Joint Chiefs of Staff revised
interoperability policies, those revisions were not immediately reflected in DoD
Instruction 4630.8. However, during this audit, DoD updated the policies to
reduce inconsistent attributes that would confuse those who will be required to
implement interoperability and information assurance policies. Furthermore,
the Office of the Secretary of Defense, in conjunction with the Chairman of the
Joint Chiefs of Staff, should implement a process that timely updates all
interoperability and information assurance policies when interoperability or
information assurance policy revisions occur.




                                     7
Interoperability Requirements
         Public Law. Section 922, Public Law 105-261, “Strom Thurmond National
         Defense Authorization Act for Fiscal Year 1999,” expressed the sense of
         Congress concerning joint warfighting experimentation. In that provision,
         Congress discussed the designation of a commander of a combatant command to
         have the mission of joint warfighting experimentation, as a key step in
         exploiting advanced technologies, new organizational structures and new joint
         operational concepts to transform the conduct of military operations by the U.S.
         Armed Forces. Congress also expressed its sense that such a commander should
         be provided with appropriate and sufficient resources for joint warfighting
         experimentation and listed the responsibilities and authorities that should
         accompany that designation, including improving interoperability; reducing
         unnecessary redundancy; synchronizing technology fielding; and making
         recommendations to the Chairman of the Joint Chiefs of Staff on mission needs
         statements and operational requirements documents. Section 485, title 10,
         United States Code, was added by section 923 of Public Law 105-261 to provide
         for an annual reporting requirement from the combatant commander to the
         Secretary, and then to the Congress, on the joint experimentation efforts for
         each preceding fiscal year.

         Comparison of ORDs to Joint Mission Architectures. The DoD designated
         the Commander, USJFCOM as the DoD Joint Force Integrator.5 However, the
         USJFCOM did not compare ORDs to joint mission architectures before system
         development started. This condition occurred because the USJFCOM, although
         responsible for conducting interoperability analysis, was not assessing the
         interoperability requirements within a joint mission architecture and because it
         did not have the necessary analytical or quantitative modeling and simulation
         tools. In comments to the report, ASD(C3I) stated that the Joint Staff must
         refine the joint mission architectures and the subordinate mission areas before
         USJFCOM can conduct an effective comparative analysis of operational
         requirements.

         Interoperability Analysis. Chairman of the Joint Chiefs of Staff
         Instruction 6212.01B requires the USJFCOM to provide comments to the Joint
         Staff J-6 on interoperability issues for all acquisition category programs so that
         each ORD contains interoperability KPPs and information exchange
         requirements. However, the USJFCOM did not analyze the ORD requirements
         of a proposed DoD system within the context of ORD requirements of other
         systems with which a proposed DoD system must interoperate and exchange
         information. Instead of analyzing the ORDs that the system will interoperate
         with, the USJFCOM stated that it reviews ORDs within the context of CRDs
         and measures interoperability and integration requirements against ORDs that


5
 DoD Instruction 4630.8 states that the USJFCOM, in an expanded role as the DoD Joint Force
Integrator, is responsible for enhancing interoperability and joint, combined, and coalition capabilities by
recommending changes in doctrine, organizations, training and education, materiel, leader development,
and personnel.


                                                     8
relate to CRDs and against other known DoD systems outside the CRDs. The
updated DoD Instruction 4630.8 assigns the USJFCOM with the responsibility
to collect, consolidate, and prioritize the information technology and national
security systems interoperability and supportability requirements for emerging
and fielded Joint Task Force systems using input from Defense agencies and
Military Departments. Additionally, the Instruction requires that USJFCOM
participate in the requirements validation process for information technology and
national security systems by reviewing and confirming that the interoperability
information exchange requirements and KPPs are sufficient for requirements
documents. This assessment is based on the warfighter’s perspective using joint
mission area integrated architectures.

         Interoperability Review Assessment. To provide interoperability
comments, USJFCOM subject-matter experts analyze ORD requirements against
qualitative criteria established in Joint Staff policy after receiving the ORD from
the Joint Staff J-6. However, the subject-matter experts do not compare the
proposed system ORD against the ORDs of the systems it must be interoperable
with, even if required, because they do not have the necessary analytical or
quantitative modeling and simulation tools to determine whether the ORD is
appropriate for the operational or systems architecture. As a result, the
subject-matter experts consider a system interoperable if the ORD contains
interoperability information exchange requirements and KPPs, but they do not
determine whether the proposed DoD system’s requirements are interoperable
with other systems in their intended mission architectures. Therefore, the
subject-matter experts conduct only a stand-alone qualitative assessment of the
ORD. The updated DoD Instruction 4630.8 requires that the development of
mission area integrated architectures be consistent with the products required by
the C4I Surveillance and Reconnaissance Architecture Framework. The
ASD(C3I) stated that the updated DoD Instruction 4630.8, combined with
guidance in the DoD Regulation 5000.2-R, “Mandatory Procedures for Major
Defense Acquisition Programs (MDAPs) and Major Automated Information
System (MAIS) Acquisition Programs,” April 5, 2002, that requires working
level integrated product teams to develop ORDs and C4I support plans, will
assist the USJFCOM in the ORD analysis.

        Tools. Modeling, simulations, or relationship databases may provide
USJFCOM with the means to synchronize interoperability requirements before
beginning system developmental work. Matching ORD interoperability and
information assurance requirements at the beginning is necessary for later
specifications, standards, and interfaces to be written in acquisition document
plans. Without conducting upfront interoperability requirements analysis of
individual systems in mission architectures, DoD may be at greater risk of
developing systems that do not communicate with each other. The Automated
Commander-in-Chief Integrated System Tool (the Tool) is a DoD initiative
under development that could assist the USJFCOM in evaluating interoperability
requirements in proposed ORDs during the review process. The Tool is an
automated process intended to enable combat developers to build testable and
measurable requirements, develop joint information exchange requirements,
identify operational architectures, and build system architectures based on
operational needs. The Tool could be a mechanism to provide a single,


                                     9
        integrated, and coherent view of interoperability requirements for the Joint
        Staff, the Military Departments, and the combatant commands. Accordingly,
        the USJFCOM could use the Tool or similar mechanism to review the ORD for
        interoperability requirements within the context of mission architectures.
        However, all Defense agencies and Military Departments would have to agree
        to use the Tool or a similar tool as the standard format for requirements sent to
        USJFCOM.

        Tracking Requirements. The Joint Staff J-6 did not have an updated Joint
        Command, Control, Communications, Computers, and Intelligence Program
        Assessment Tool (JCPAT) database to maintain interoperability certifications,
        TEMPs, C4I support plans, and approved ORDs for DoD systems. Further,
        after users were granted access to the JCPAT, they had unlimited read access to
        all information, which raises concerns about the need to know.

                Maintenance of the Database. In May 1999, the Joint Staff established
        the JCPAT on the Secret Internet Protocol Router Network for DoD
        organizations to use for tracking and staffing comments while reviewing the
        requirements during the interoperability certification process, as required in the
        Chairman of the Joint Chiefs of Staff Instruction 6212.01B. The Joint Staff J-6
        relies on the DISA to maintain up-to-date documents that contain interoperability
        and information assurance requirements for DoD systems. The documents
        maintained include ORDs, CRDs, C4I support plans, and TEMPs. As a result,
        the JCPAT is a historical database that lists all DoD systems undergoing
        interoperability requirements certification or that have been certified for
        interoperability. Further, the JCPAT contains comments made on DoD systems
        about interoperability concerns.

        When searching for interoperability certified documents in the JCPAT, a user
        could not be assured that the document located was the most recently certified
        document. More importantly, the Defense agencies and Military Departments
        did not forward approved documents, such as the ORD, CRDs, C4I support
        plans, or TEMP, for inclusion in the JCPAT database. The final approved
        documents were not consistently maintained in the JCPAT because the Joint
        Staff J-6 depends on the Joint Requirements Oversight Council and milestone
        decision authorities to execute the requirement for Stage Three in the
        requirement certification process.6 Therefore, the DISA and the USJFCOM
        cannot compare new proposed ORDs to approved ORDs to provide meaningful
        comments to the Joint Staff J-6 on the proposed ORDs.

        For the JCPAT to be useful, final versions of the documents must be submitted
        and included in the JCPAT. Further, outdated versions of documents should be
        archived so that users can locate and obtain the most up-to-date approved
        documents for making interoperability determinations for DoD systems.



6
 The Chairman of the Joint Chiefs of Staff Instruction 6212.01B requires posting the document into the
JCPAT within 15 days after the Joint Requirements Oversight Council or the milestone decision authority
approves the mission need statement, CRD, or ORD.


                                                  10
                Access to Database. Appendix H identifies 50 DoD organizations that
        have access to the JCPAT. In those 50 DoD organizations, 756 users were
        given access to the JCPAT through a secure network. DISA identified 756 total
        users; however, it could not designate whether those users were DoD or
        contractor personnel. As a result, contractors have read-only access to program
        documentation for which they may not have a need to know.

Oversight of Significant Interoperability Deficiencies
        Interoperability Watch List. DoD policy on the Interoperability Watch List
        (Watch List) did not define a significant interoperability deficiency that would
        cause the Office of the Secretary of Defense, the Joint Staff, the Defense
        agencies, and the Military Departments to place a DoD system on the Watch
        List.

        Policy. DoD Regulation 5000.2-R states that all major DoD acquisition
        programs, programs on the Office of the Secretary of Defense Test and
        Evaluation Oversight list, legacy systems, and all programs and systems that
        must interoperate with them are subject to interoperability evaluations
        throughout their life cycles to validate their ability to support mission
        accomplishment. At their discretion, the Under Secretary of Defense for
        Acquisition, Technology, and Logistics; the ASD(C3I); the Director,
        Operational Test and Evaluation; and the Joint Staff (the four signatories)
        decide, based on the Interoperability Senior Review Panel’s7 recommendations,
        to place programs and systems deemed to have significant interoperability
        deficiencies on the Watch List. DoD systems are to remain on the Watch List
        until program managers take corrective actions to address identified
        interoperability deficiencies. The Interoperability Senior Review Panel is
        required to prepare quarterly reports summarizing the activities of DoD systems
        and programs on the Watch List.

        Inclusion of DoD Systems with Significant Interoperability Deficiencies on
        the Watch List. Although the policy applies to all programs and systems, as of
        July 2002, no programs had been or are on the Watch List.8 Further, the
        Interoperability Senior Review Panel did not prepare any quarterly reports that
        addressed DoD systems with interoperability testing concerns during FY 2001.


7
 The Interoperability Senior Review Panel is composed of senior leaders from the Offices of the Under
Secretary of Defense for Acquisition Technology and Logistics; the ASD(C3I); the Joint Staff; the
USJFCOM; the Director for Programs, Analysis, and Evaluation; and the Director, Operational Test and
Evaluation.
8
 The Director, Operational Test and Evaluation stated that the original intent was for organizations, such
as the Military Communication and Electronics Board, the USJFCOM, and others, to identify DoD
systems for the Watch List. The Interoperability Senior Review Panel has discussed criteria. One
criteria is the overall impact the lack of interoperability has on a mission area. The Interoperability
Senior Review Panel has considered the U.S. Air Force Situational Awareness Date Link as a candidate
for placement on the Watch List; however, the Interoperability Senior Review Panel has been unable to
reach consensus on the placing the Situational Awareness Date Link on the Watch List.


                                                    11
        However, the Director, Operational Test and Evaluation cited interoperability
        testing concerns for 21 DoD systems in the FY 2001 Annual Test Report to
        Congress, as shown in the following table.




                             Programs with Interoperability Deficiencies
                                 in the FY 2001 Annual Test Report

                                                                 Number
                                       Military                  of DoD
                                      Department                 Systems

                                      Army                            8
                                      Navy                            7
                                      Air Force                       5
                                      Other DoD                       1
                                        Total                        219




        The Director, Operational Test and Evaluation stated that identifying
        interoperability deficiencies in the FY 2001 Annual Report is a positive sign that
        DoD policies are working and that program managers are now obligated to
        address the Director, Operational Test and Evaluation concerns before
        progressing with development and production. Furthermore, the Director,
        Operational Test and Evaluation stated that many of the systems shown in the
        table will be tested and validated over a series of already scheduled test events
        outlined in the applicable system’s TEMP. However, some of the programs
        were not mature enough in development to address interoperability issues, while
        other systems were having to “catch up” to recent policies, because the policies
        were not in existence in the system’s early development phase.

        DoD Regulation 5000.2-R states that DoD systems that have a significant
        interoperability deficiency may be added to the Watch List. Because the phrase
        significant interoperability deficiency is ambiguous, a more concise definition is
        required to determine when a DoD system should be added to the Watch List.
        The Interoperability Senior Review Panel could use the requirements in DoD
        Regulation 5000.2-R on interoperability and information assurance as


9
 Of the 21 programs, 9 are Acquisition Category I, 8 are Acquisition Category II, and 4 are Acquisition
Category III. Those programs are on the Director, Operational Test and Evaluation’s Oversight Watch
List. The Director, Operational Test and Evaluation stated that, because those programs were on the
Oversight Watch List, many of the system level issues would be resolved at the milestone decision
reviews. However, he stated that the concern was with the systems not on the Oversight Watch List,
such as Acquisition Category III and IV systems, transitioning advanced concept technology
demonstrations, and fielded legacy systems.


                                                  12
        criteria for determining inclusion of systems on the Watch List. DoD
        Regulation 5000.2-R requires that DoD system program offices have:

                 •   an interoperability certification from the Joint Staff J-6,

                 •   approval of the C4I support plan and information assurance strategy
                     from the chief information officer,

                 •   verification that the program manager used the Joint Technical
                     Architecture standards and guidelines in system development, and

                 •   an approved Systems Security Authorization Agreement.

        By actively using the Watch List, the DoD would have a method of ensuring
        compliance with the interoperability and information assurance based on DoD
        Regulation 5000.2-R requirements. The updated DoD Instruction 4630.8
        reinforces the establishment of the Watch List.10 However, the revised
        instruction does not state specific criteria for systems to be included on the
        Watch List. The phrase “critical for mission effectiveness” allows a broad
        interpretation.

        Measuring Progress. DoD Regulation 5000.2-R states that when a DoD
        system is placed on the Watch List, the program office is to provide periodic
        updates of current status towards correcting identified deficiencies to the
        Interoperability Senior Review Panel. The program manager, or other
        cognizant official, and the responsible test organization, in conjunction with
        JITC, provide those updates. Those updates support an assessment as to
        whether interoperability issues are being adequately addressed, and whether a
        status change is warranted; specifically, whether the program or system should
        be removed from the Watch List, kept on the Watch List, or proposed for test
        and evaluation oversight. Staff members of the Interoperability Senior Review
        Panel are to conduct quarterly reviews to determine the program manager’s
        progress towards addressing identified interoperability deficiencies.

        To strengthen the review process for measuring corrective actions to mitigate
        the deficiencies, program office corrective actions taken on Acquisition
        Category I programs and less than Acquisition Category I programs on the
        Watch List should be discussed in the Defense Acquisition Executive Summary
        reporting process and during program reviews, respectively.

                Defense Acquisition Executive Summary. DoD Regulation 5000.2-R
        states that the Defense Acquisition Executive Summary is a multi-part
        document, which reports program information and assessments; program

10
  DoD Instruction 4630.8 requires that the Director, Operational Test and Evaluation establish, in
conjunction with the Under Secretary of Defense for Acquisition, Technology, and Logistics; the DoD
Chief Information Officer; the Chairman of the Joint Chiefs of Staff; and the USJFCOM, an
Interoperability Watch List to provide DoD oversight for those systems that interoperability is deemed
critical to mission effectiveness, but is not being adequately addressed. Systems considered for the
Interoperability Watch List may be preacquisition systems, acquisition programs (any acquisition
category), already fielded systems, or combatant command-unique procurements.


                                                   13
     manager, program executive officer, and Component acquisition executive
     comments; and cost and funding data primarily for Acquisition Category I
     programs. The Defense Acquisition Executive Summary is an early warning
     report to the Under Secretary of Defense for Acquisition, Technology, and
     Logistics and the ASD(C3I), which describes actual program problems, warns
     of potential program problems, and describes mitigating actions taken. At a
     minimum, the Defense Acquisition Executive Summary reports program
     assessments, including interoperability, unit costs, and current estimates, and
     the status of exit criteria and vulnerability assessments. The Under Secretary of
     Defense for Acquisition, Technology, and Logistics; the Under Secretary of
     Defense (Comptroller); Director, Operational Test and Evaluation; the Cost
     Analysis Improvement Group in the Office of the Secretary of Defense; the
     Component acquisition executives; and the program executive officers review or
     assess the Defense Acquisition Executive Summary reports. During those
     reviews or assessments, we believe those groups should determine whether the
     program has:

            •   shown significant interoperability deficiencies,

            •   been placed on the Watch List, and

            •   made progress towards correcting the significant interoperability
                deficiencies to be removed from the Watch List.

     By reviewing significant interoperability deficiencies during the review process,
     the Defense Acquisition Executive Summary review groups may have focused
     additional attention on the nine Acquisition Category I programs that have
     interoperability testing concerns in the FY 2001 Annual Test Report to
     Congress.

             Program Reviews. At milestone and appropriate program reviews, the
     milestone decision authority should be focusing additional attention on programs
     that are on the Watch List to determine whether the program offices are making
     satisfactory progress towards correcting significant interoperability deficiencies.

Testing Interoperability and Information Assurance
  Requirements in the Global Information Grid
     On March 31, 2000, the Deputy Secretary of Defense directed the Director,
     Operational Test and Evaluation to include critical operational issues addressing
     interoperability and information assurance in the GIG operational test and
     evaluation.

     The GIG is not one system, but an end-to-end set of information capabilities,
     associated processes, and personnel for collecting, processing, storing,
     disseminating, and managing information on demand to warfighters, policy
     makers, and support personnel. The GIG includes all owned and leased
     communication and computing systems, services, software, data, security
     services, national security systems, and associated services necessary to achieve


                                         14
         Information Superiority. In this regard, the Director, Operational Test and
         Evaluation plans to eventually create a joint network to simulate the GIG
         consisting of equipment at Military Department test facilities.11 That simulated
         network would show how DoD systems will communicate in a joint and allied
         environment. However, the Director, Operational Test and Evaluation had not
         formalized a plan that discusses the required resources needed to construct the
         network.

         Military Departments, system designers, and system testers need to coordinate
         their resources to adequately test interoperability and information assurance
         among DoD systems in the GIG and determine their mission capability in a joint
         environment. System testers design operational tests around critical operational
         issues that are derived from operational requirements in the ORD. However,
         the GIG is based on many DoD systems that work together as an architecture of
         a mission area. Therefore, testing of interoperability and information assurance
         in individual DoD systems that are part of the GIG must be included as critical
         operational issues so that testers will fully test the operational effectiveness and
         suitability of the individual systems as they operate in the GIG. The Director,
         Operational Test and Evaluation stated that the challenge is to identify the
         appropriate architecture and the ability to execute a test that takes into account
         the scope of that architecture.

Conclusion
         Without consistent guidance that makes combat and materiel developers analyze
         programs using an operational architecture view, the DoD is at risk of
         developing systems that operate independently of other systems and of not fully
         realizing the benefits of interoperable DoD systems to satisfy the needs of the
         warfighter as outlined in Joint Vision 2020. DoD interoperability and
         information assurance requirements must become more streamlined and easier to
         implement. Further, information assurance must be implemented appropriately
         and commensurate to the level of interoperability required to avoid fielding DoD
         systems that do not ensure the availability, integrity, authenticity,
         confidentiality, and nonrepudiation of information. To achieve this objective,
         combat developers12 must have the capability to conduct analyses of operational
         requirements at the beginning of a system to determine the interoperability and
         information assurance effects of new and legacy systems on mission area
         architectures.13 Without this capability, the combat developers cannot determine
         which systems need to operate together and whether those systems will be
         suitable for the warfighter.
11
  DoD has funded the development of the Joint Distributed Engineering Plant to coordinate resources for
testing. The Director, Operational Test and Evaluation stated that, as the Joint Distributed Engineering
Plant matures, he will use it for integration testing to provide that larger environment represented by the
GIG.
12
 A combat developer is the command or agency that formulates doctrine, concepts, organization
makeup, materiel requirements, and objectives. Generically, it represents the user community role in the
materiel acquisition process.
13
   The ASD(C3I), the Director, Operational Test and Evaluation, and the USJFCOM stated that the
Chairman of the Joint Chiefs of Staff completing joint mission area architectures is critical to achieving
interoperability.

                                                    15
Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit responses are in
    Appendix I.

Recommendations, Management Comments, and Audit
  Response
    Redirected and Revised Recommendations. In response to most of the
    recommendations, we received varied management comments to the same
    recommendation, often without a coordinated corrective action plan. Therefore,
    to collectively resolve the recommendations and to obtain succinct and attainable
    corrective action, we are redirecting Recommendations 1., 2., 3.a., 3.b., 4.a.,
    and 4.b. to the Co-Chair, Interoperability Senior Review Panel, which consists
    of senior leaders from the Offices of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; the ASD(C3I); the Joint Staff; the
    USJFCOM; the Director for Programs, Analysis, and Evaluation; and the
    Director, Operational Test and Evaluation. Further, in response to comments
    by the Director, Interoperability, Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; the Inspector General, USJFCOM; and
    the Director, Joint Staff, we revised Recommendations 1., 3.a., and 4.b.,
    respectively, so that:

           •   the revision process for interoperability and information assurance
               policies will be jointly implemented instead of coordinated among the
               applicable organizations;

           •   the Commander, USJFCOM will compare the ORDs of proposed
               DoD systems with joint mission area architectures, as they are
               completed, against the ORDs in the related joint mission area
               architecture to verify the completeness of stated interoperability
               requirements; and

           •   JCPAT access will be limited to users who have a need to know.

    1. We recommend that the Co-Chair, Interoperability Senior Review
    Panel, in concert with the applicable membership of the Interoperability
    Senior Review Panel, implement a process that timely integrates revisions
    for interoperability and information assurance policies into the applicable
    DoD and Chairman of the Joint Chiefs of Staff interoperability and
    information assurance policies.

    Director, Architecture and Interoperability, Office of the ASD(C3I),
    Comments. The Director concurred, stating that his office will work with the
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and the Joint Staff to implement a process for timely revision and



                                       16
synchronization of DoD interoperability and information assurance policies.
Further, the Director stated that the Interoperability Senior Review Panel will be
used to:

       •   coordinate the annual review and synchronization and review, if
           required, for the following policies and implementing instructions
           that affect interoperability: DoD Directive 4630.5; DoD
           Instruction 4630.8; Chairman of the Joint Chiefs of Staff
           Instruction 3170.01B, “Requirements Generation System,” April 15,
           2001; and Chairman of the Joint Chiefs of Staff
           Instruction 6212.01B; and

       •   ensure consistency of those policies and implementing instructions
           with the 5000 series policy documents for acquisition; DoD
           Instruction 5200.40, “DoD Information Technology Security
           Certification and Accreditation Process (DITSCAP),” December 30,
           1997; and Chairman of the Joint Chiefs of Staff
           Instruction 6510.01C, “Information Assurance and Computer
           Network Defense,” May 1, 2001.

For the complete text of the Director’s comments, see the Management
Comments section of the report.

Director, Joint Staff Comments. The Director concurred, subject to the
inclusion of his comments, and suggested adding the following to the
recommendation:
           We also recommend the implementation of a process which addresses,
           funds, and implements aspects of joint battle management command
           and control interoperability and connectively; validation and/or
           allocation of resources to acquire Joint systems and create offices
           supporting integration of materiel and non-materiel solutions for
           broad mission capability areas.

The Director stated that he made the suggestion because the report did not
address the issue that DoD was not effectively structured to organize, train, and
equip joint capabilities. Further, he stated that a joint process was not
established to delineate who is responsible and accountable for developing and
acquiring joint command and control systems and integrating capabilities. For
the complete text of the Director’s comments, see the Management Comments
section of the report.

Director, Interoperability, Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics Comments. The Director neither
concurred nor nonconcurred; however, he stated that the wording “in
coordination with” could be construed to give the ASD(C3I) primacy over the
Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Joint Staff in integrating revisions to all documents related to interoperability.
Further, he stated that each of those organizations is responsible for one or more
of those documents. Therefore, the Director recommended that the phase “in
coordination with” be changed to “jointly with” or that the first four lines be


                                      17
rewritten to read, “We recommend that the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence); the Under Secretary of
Defense for Acquisition, Technology, and Logistics; and the Chairman of the
Joint Chiefs of Staff jointly implement....” For the complete text of the
Director’s comments, see the Management Comments section of the report.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
agreed, stating that the Interoperability Senior Review Panel will work with the
Joint Staff to implement a process for timely revision and synchronization of
DoD policies regarding interoperability and information assurance. In addition,
he provided comments similar to those made by the Director, Architecture and
Interoperability, Office of the ASD(C3I). For the complete text of the
Co-Chair’s comments, see the Management Comments section of the report.

Audit Response. The comments by the Director, Architecture and
Interoperability, Office of the ASD(C3I); and the Director, Interoperability,
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics were responsive. In response to the Director, Interoperability, we
revised the recommendation as suggested. Further, the suggestion by the
Director, Joint Staff concerning the issue of organizing, training, and equipping
joint capabilities was outside the audit scope.

Because the respondents have not yet established a process for timely revision
and synchronization of DoD policies regarding interoperability and information
assurance, we redirected the recommendation to the Co-Chair, Interoperability
Senior Review Panel, whose membership consists of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the ASD(C3I); the Joint
Staff; the USJFCOM; the Director for Programs, Analysis, and Evaluation; and
the Director, Operational Test and Evaluation, and request that the Co-Chair
provide additional comments on how and when the Interoperability Senior
Review Panel will establish a timely revision and synchronization process.

2. We recommend that the Co-Chair, Interoperability Senior Review
Panel, in concert with the applicable membership of the Interoperability
Senior Review Panel, define the term significant interoperability deficiency,
and establish criteria and procedures for placing a DoD system with a
significant interoperability deficiency on the Interoperability Watch List.

Director, Joint Staff Comments. The Director concurred, subject to the
inclusion of his comments, and suggested adding the following subparagraphs to
the recommendation:
           a.   Develop Joint Mission Area Architectures based on currently
                available DoD assets and based on those assets needed to provide
                the capabilities for the future.
           b. Provide an analysis branch within each JMA [Joint Mission Area]
              to assess Requirement Document relevance against known
              architecture needs.




                                        18
           c.   Develop compliant, certified, and standard analysis and predictive
                tools, such as models or simulations, to assist in verifying the
                completeness of stated interoperability requirements in mission
                area architectures.

Director, Architecture and Interoperability, Office of the ASD(C3I),
Comments. The Director neither concurred nor nonconcurred; however, he
stated that his office is working with the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Director, Operational
Test and Evaluation; and the Joint Staff to develop procedures for addressing
interoperability deficiencies within existing processes. Further, he stated that
his office will continue to work with the Interoperability Senior Review Panel to
refine the process for identifying programs with interoperability deficiencies and
for nominating those programs as candidates for the Interoperability Watch List.
The Director stated that, because the Interoperability Watch List is a relatively
new oversight tool, the development of appropriate criteria and procedures for
placing programs on the Interoperability Watch List is still in the formative
stages.

In addition, the Director stated that the Air Force’s Situational Awareness Data
Link program was pursued as an initial pilot case for nomination to the
Interoperability Watch List. He stated that the lessons learned from that pilot
case will be applied as other programs are explored for Interoperability Watch
List consideration.

Director, Operational Test and Evaluation Comments. The Director
partially concurred, stating that, as a member of the Interoperability Senior
Review Panel, his office continues to work with the other members on refining
the Interoperability Watch List processes. Further, he stated that the
Interoperability Watch List is one of many tools available within DoD to address
interoperability problems. The Director also stated that the Interoperability
Watch List policy states that the list will be used for those systems with
interoperability issues that are not being adequately addressed by other forums.

The Director stated that the Interoperability Senior Review Panel has served a
valuable role over the last 18 months by coordinating interoperability policies
and actions across DoD and by working within existing forums to solve issues.
For example, the Interoperability Senior Review Panel worked with the Office
of the Deputy Under Secretary of Defense for Advanced Systems and Concepts,
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics to ensure that interoperability is stressed within advanced concept
technology demonstrations to avoid problems in the transition of these
experimental items to the force.

In addition, the Director stated that the criteria for Interoperability Watch List
candidates suggested by the report were certainly a start and that his office and
the Interoperability Senior Review Panel would use those criteria to evaluate
future candidates. He also stated that the report cited the Director, Operational
Test and Evaluation’s Annual Report to Congress as a source of systems for the
Interoperability Watch List.



                                        19
In conclusion, the Director stated that, although he believed that those systems
in the Annual Report already received adequate attention through test and
evaluation oversight and other acquisition review processes, he would bring
programs under test and evaluation oversight that were not adequately
addressing interoperability to the attention of the Interoperability Senior Review
Panel for its consideration.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
stated that the Interoperability Senior Review Panel will continue to refine the
process and procedures to implement the Interoperability Watch List. Further,
he stated that the Interoperability Senior Review Panel’s pilot case in 2001 was
the Air Force’s Situational Awareness Data Link program. The Co-chair stated
that the Interoperability Senior Review Panel determined that the Situational
Awareness Data Link had significant interoperability issues. In addition, he
stated that the visibility, which the Interoperability Senior Review Panel placed
on the Situational Awareness Data Link, caused the Air Force to design an
interoperable solution for its close air support aircraft.

The Co-Chair stated that the Interoperability Senior Review Panel continues to
investigate other programs for the Interoperability Watch List and will work to
find solutions within established processes of the Offices of the Joint Staff; the
Under Secretary of Defense for Acquisition, Technology, and Logistics; the
ASD(C3I); and the Director, Operational Test and Evaluation before placing a
system on the Interoperability Watch List.

Audit Response. The comments of the Director, Joint Staff; the Director,
Architecture and Interoperability, Office of the ASD(C3I); and the Director,
Operational Test and Evaluation were responsive. However, the suggestion that
the Director, Joint Staff made concerning the subparagraphs to the
recommendation should be proposed to the Interoperability Senior Review Panel
for defining criteria, processes, and procedures for the Interoperability Watch
List.

Even though the Director, Interoperability, Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Inspector General,
USJFCOM did not comment on the recommendation, the comments by the
Co-Chair, Interoperability Senior Review Panel satisfied the requirement to
comment because those offices are represented on the Interoperability Senior
Review Panel.

In addition to investigating other programs for the Interoperability Watch List
and working to find solutions within established processes before placing a
system on the Interoperability Watch List, the Interoperability Senior Review
Panel should have a clearly defined process and criteria for the Interoperability
Watch List to work effectively. The specific criteria, processes, and procedures
should be included in DoD instructions so that combat and materiel developers
understand the ramifications of their systems not being interoperable.
Therefore, we redirected the recommendation to the Co-Chair, Interoperability
Senior Review Panel, and request that he provide additional comments on how



                                    20
and when the Interoperability Senior Review Panel will establish a clearly
defined process and criteria for placing DoD weapon systems in the
development phase of the acquisition process on the Interoperability Watch List.

3. We recommend that the Co-Chair, Interoperability Senior Review
Panel, in concert with the applicable membership of the Interoperability
Senior Review Panel, ensure that the Commander, U.S. Joint Forces
Command, pursuant to DoD Instruction 4630.8, “Procedures for
Interoperability and Supportability of Information Technology (IT) and
National Security Systems (NSS),” May 2, 2002, and the Chairman of the
Joint Chiefs of Staff Instruction 6212.01B, “Interoperability and
Supportability of National Security Systems, and Information Technology
Systems,” May 8, 2000, as part of the operational requirements document
interoperability certification process:

       a. Compares the operational requirements documents of proposed
DoD systems with joint mission area architectures, as they are completed,
against the other operational requirements documents in the related joint
mission area architecture to verify the completeness of stated
interoperability requirements.

Inspector General, USJFCOM Comments. The Inspector General neither
concurred nor nonconcurred; however, he stated that the recommendation is not
achievable without the Joint Staff’s completion of the joint mission area
architectures. Further, he stated that USJFCOM recognizes that the
development of the joint mission area architectures is critical when comparing
requirements across programs and will continue to pursue this need separately
and collectively in all available forums. In addition, the Inspector General
recommended that the recommendation be changed for accuracy to read:
           Compare the operational requirements documents of proposed DoD
           systems with JMA [Joint Mission Area] architectures, as they are
           completed, against the other operational requirements documents in
           the related joint mission area architecture to verify the completeness
           of stated interoperability requirements.

The Inspector General suggested this new recommendation because USJFCOM
was not resourced to execute Recommendations 3.a. and 3.b.

Director, Joint Staff Comments. The Director stated that the USJFCOM was
required to review only operational requirements documents as standalone
documents for compliance with capstone requirements documents. Further, he
stated that USJFCOM does not have the authority or resources to provide a
more in-depth review of operational requirements documents for interoperability
within the respective family of systems. Further, the Director suggested that the
recommendation be changed for accuracy to read:
           Compare all relevant requirements documents of proposed DoD IT
           [Information Technology] and NSS [National Security System] (to
           include SAP [Special Access Program]) systems with JMA [Joint
           Mission Area] architectures, as they are completed, against all other



                                        21
           operational requirements documents in the related joint mission area
           architecture to verify the completeness of stated interoperability
           requirements.

Director, Architecture and Interoperability, Office of the ASD(C3I),
Comments. The Director agreed with the underlying premise of the
recommendation. However, the Director believes that the recommendation
should have indicated that, before the Joint Forces Command can conduct an
effective comparative analysis of operational requirements:

       •   the Joint Staff must first define the joint mission areas and
           subordinate supporting mission areas and

       •   the DoD Components must develop mission area integrated
           architectures.

Further, the Director stated that DoD Instruction 4630.8 assigns to the Joint
Staff the responsibility to:
           Ensure mission area integrated architectures, strategies, concepts, and
           visions of the DoD Components are synchronized to support IT
           [Information Technology] and NSS [National Security System]
           interoperability requirements and identify opportunities for, and
           impediments to, interoperability.

The Director also stated that, once joint mission and subordinate mission areas
are defined, the Joint Staff must coordinate with the DoD Components to ensure
that DoD develops a consistent and integrated set of mission area integrated
architectures across the Military Departments and Defense agencies. He
proposed that a recommendation be made in the report for the Joint Staff to
further refine existing joint mission areas and to define applicable subordinate
mission areas to serve as a basis for the DoD Components to develop mission
area integrated architectures.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
agreed with the concept of the recommendation, stating that the Interoperability
Senior Review Panel recognizes that the development of the joint mission area
architectures is critical to the comparison of requirements across programs.
Further, he stated that Interoperability Senior Review Panel will continue to
emphasize this need separately and collectively in all available forums.
However, the Co-Chair stated that the recommendation, as drafted, is not
actionable by the Joint Forces Command without Joint Staff completion of the
joint mission area architectures.

Audit Response. The Inspector General, USJFCOM comments were
responsive to the intent of our recommendation. In response to those
comments, we revised the recommendation as suggested by the Inspector




                                        22
General, USJFCOM. Further, we redirected the recommendation to the
Co-Chair, Interoperability Senior Review Panel, and request that he provide
additional comments on:

       •   the interim process that the Interoperability Senior Review Panel and
           USJFCOM will employ to compare the ORDs of proposed DoD
           systems against the other ORDs in the related mission area
           architecture to verify the completeness of stated interoperability
           requirements until the joint mission area architectures are completed;
           and

       •   the resources that the Interoperability Senior Review Panel and
           USJFCOM require to implement the recommendation.

In response to the Director, Joint Staff comments that USJFCOM does not have
the authority or resources to provide a more in-depth review of operational
requirements documents, Congress expressed its sense in Section 922, Public
Law 105-261, that the commander of a combatant command should be provided
with appropriate and sufficient resources for joint warfighting experimentation.
It listed the responsibilities and authorities that should accompany that
designation, including improving interoperability and making recommendations
to the Chairman of the Joint Chiefs of Staff on mission needs statements and
ORDs. Accordingly, if USJFCOM believes that resources are insufficient, it
should request the resources needed to fulfill the congressional intent.

       b. Uses quantification analysis and predictive tools, such as models
or simulations, to assist in verifying the completeness of stated
interoperability requirements in mission area architectures.

Inspector General, USJFCOM Comments. The Inspector General neither
concurred nor nonconcurred; however, he stated that the recommendation was
not fully achievable at this time. Further, he stated that, although the software
tools referenced in the report are under USJFCOM assessment and show
potential, the software tools must be officially accredited by the Office of the
Secretary of Defense and the Joint Staff for the verification of joint
interoperability requirements in mission area architectures.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
agreed with the concept of the recommendation and provided comments similar
to those submitted by the Inspector General, USJFCOM.

Audit Response. The Inspector General, USJFCOM comments were
responsive to the intent of our recommendation. However, because the software
tools referenced in the report are under USJFCOM assessment and show
potential, but have not yet been accredited, we redirected the recommendation to
the Co-Chair, Interoperability Senior Review Panel and request that he provide
additional comments on:

       •   when the accreditation process for the software tools will be
           completed, and


                                    23
       •   when the software tools will be made available for the DoD
           Components to verify joint interoperability requirements of planned
           weapon systems in mission area architectures.

4. We recommend that the Co-Chair, Interoperability Senior Review
Panel, in concert with the applicable membership of the Interoperability
Senior Review Panel:

       a. Update or archive, as applicable, outdated operational
requirements documents maintained in the Joint Command, Control,
Communications, Computers, and Intelligence Program Assessment Tool
database.

Director, Joint Staff Comments. The Director concurred, subject to the
inclusion of his comments, and suggested that the recommendation be redirected
to the ASD(C3I); the Director, DISA; and the Commander, USJFCOM, in
addition to the Director, Command, Control, Communications, and Computers
Systems Directorate (J-6), Office of the Chairman of the Joint Chiefs of Staff.
He stated that the reason for redirecting the recommendation was because:

       •   JCPAT access and archiving are functional responsibilities of the
           Defense Information Systems Agency;

       •   the Office of the ASD(C3I) also uses the JCPAT; and

       •   as the warfighters advocate for interoperability and integration,
           USJFCOM should participate in the architecture process to ensure
           that warfighter needs and interests are met.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
stated that the Interoperability Senior Review Panel supports the position of the
Joint Staff regarding this recommendation. Specifically, the responsibility for
the JCPAT goes beyond the Joint Staff; therefore, the recommendation should
be addressed to all departments, agencies, and directorates that use or control
access, or both, to the JCPAT. Further, he stated that the Interoperability
Senior Review Panel will review the policy and guidance associated with the
JCPAT and make recommendations to appropriate organizations.

Audit Response. The Director, Joint Staff comments were responsive to the
intent of our recommendation. In response to those comments, we redirected
the recommendation as suggested by the Director, Joint Staff. However,
because the Offices of the Chairman of the Joint Chiefs of Staff; the ASD(C3I);
the Commander, USJFCOM; and the Director, DISA are represented on the
Interoperability Senior Review Panel, we redirected the recommendation to the
Co-Chair, Interoperability Senior Review Panel and request that he provide
comments on how those represented offices will update or archive, as
applicable, outdated ORDs maintained in the JCPAT database.




                                    24
      b. Limit Joint Command, Control, Communications, Computers,
and Intelligence Program Assessment Tool access to users who have a need
to know.

Director, Joint Staff Comments. The Director concurred, subject to the
inclusion of his comments, and suggested that the recommended corrective
action to limit JCPAT access to users who have a need to know be coordinated
among the ASD(C3I); the Director, DISA; and Joint Staff directorates. He
stated that the reason for coordinating the corrective action was because the
JCPAT is a collaborative database used by the organizations listed in his
suggested redirection of the recommendation, as discussed above in
Recommendation 4.a.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair’s
comments to Recommendation 4.a. also applied to this recommendation.

Audit Response. The Director, Joint Staff comments were responsive to the
intent of our recommendation. In response to those comments, we revised and
redirected the recommendation as he suggested. Therefore, because the Offices
of the Chairman of the Joint Chiefs of Staff; the ASD(C3I); the Commander,
USJFCOM; and the Director, DISA are represented on the Interoperability
Senior Review Panel, we redirected the recommendation to the Co-Chair,
Interoperability Senior Review Panel and request that he provide comments on
how those represented offices will limit JCPAT access to users having a need to
know.

5. We recommend that the Director, Operational Test and Evaluation
define and implement a plan to test critical operational issues, including
interoperability and information assurance requirements, for DoD systems
in the Global Information Grid.

Director, Operational Test and Evaluation Comments. The Director
partially concurred, stating that testing of interoperability and information
assurance takes on more critical status as we continue to transform into a
network centric force. Further, he stated that his office already ensures that
interoperability is tested to support the assessment of key performance
parameters provided in the operational requirements documents and published
policy in 1999 for testing information assurance.

In addition, the Director stated that his office conducted an assessment in 2000
to determine requirements for interoperability testing of systems within the
scope of a larger networked system of systems linked over the Global
Information Grid. As a result of this effort and similar initiatives by the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics
and the Joint Staff, DoD funded an initial capability called the Joint Distributed
Engineering Plant in the FY 2002 Program Objectives Memorandum. The
Director believes that the objective of the Joint Distributed Engineering Plant
capability will permit his office to do the testing called for in this
recommendation. However, expanded funding for the Joint Distributed
Engineering Plant beyond that recommended in the Program Objectives


                                    25
Memorandum is required before the Plant will provide the full scope called for
in this recommendation. Further, he stated that interoperability and information
assurance are key enablers for the future.

Co-Chair, Interoperability Senior Review Panel Comments. The Co-Chair
agreed, providing comments similar to those by the Director, Operational Test
and Evaluation concerning testing of interoperability and information assurance
and testing to support the assessment of key performance parameters provided in
the operational requirements documents. Further, he stated that the
Interoperability Senior Review Panel supports the development of necessary test
capabilities to represent relevant aspects of the Global Information Grid that will
allow programs to test in a system of systems environment. The Co-Chair also
stated that the Offices of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the ASD(C3I); and the Director, Operational Test
and Evaluation support expanded funding in the upcoming Program Objectives
Memorandum for the Joint Distributed Engineering Plant, which will allow
cost-effective testing of critical operational issues, including interoperability and
information assurance requirements, for DoD systems in the Global Information
Grid.




                                     26
Appendix A. Scope and Methodology
   We reviewed documentation dated from March 1992 to July 2002. During the
   audit policies continued to be updated. To accomplish the audit objective, we:

          •   interviewed and obtained documentation from the staffs of the Under
              Secretary of Defense for Acquisition, Technology, and Logistics; the
              Under Secretary of Defense (Comptroller); the Assistant Secretary of
              Defense (Command, Control, Communications, and Intelligence); the
              Director, Operational Test and Evaluation; the Office of the Joint
              Chiefs of Staff; the U.S. Joint Forces Command; the Defense
              Information Systems Agency; and the Joint Interoperability Test
              Command.

          •   reviewed the processes that the Office of the Secretary of Defense,
              the Office of the Chairman of the Joint Chiefs of Staff, and the
              Defense agencies used for certifying DoD systems for
              interoperability and information assurance and whether those
              processes were effectively implementing DoD information
              interoperability and information assurance policies.

   Subsequent reports will discuss the adequacy of interoperability key
   performance parameters in operational requirements documents and the
   certification process for DoD system interoperability within the Army, the
   Navy, the Air Force, and the unified combatant commands.

   We performed this audit from September 2001 through July 2002 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program because the audit focused on interoperability and
   information assurance requirements and review processes; therefore, our scope
   was limited to those specific requirements and processes.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the DoD weapon systems acquisition high-risk area.

   Use of Computer-Processed Data. We did not rely on computer-processed
   data to perform this audit.

   Use of Technical Assistance. A computer specialist from the Technical
   Assessment Division, Office of the Assistant Inspector General for Auditing of
   the Department of Defense, assisted the auditors in reviewing information
   assurance requirements.




                                      27
Prior Coverage
     During the last 5 years, the General Accounting Office (GAO), the Inspector
     General of the Department of Defense (IG DoD), and the Defense Science
     Board have issued five reports addressing interoperability and information
     assurance requirements for Defense systems. Unrestricted General Accounting
     Office and Inspector General of the Department of Defense reports can be
     accessed at http://www.gao.gov and http://www.dodig.osd.mil/audit/reports,
     respectively.

     General Accounting Office
            GAO Report No. NSIAD-98-73, “Joint Military Operations: Weakness
            in DoD’s Process for Certifying C4I Systems’ Interoperability,” March
            1998

     Inspector General of the Department of Defense
            IG DoD Report No. D-2001-176, “Survey of Acquisition Manager
            Experience using the DoD Joint Technical Architecture in the
            Acquisition Process,” August 22, 2001

            IG DoD Report No. D-2001-121, “Use of the DoD Joint Technical
            Architecture in the Acquisition Process,” May 14, 2001

            IG DoD Report No. 98-023, “Implementation of the DoD Joint
            Technical Architecture,” November 18, 1997

     Defense Science Board
            Defense Science Board Task Force, “Protecting the Homeland, Report
            of the Defense Science Board Task Force on Defensive Information
            Operations, 2000 Summer Study, Volume II,” March 2001

Other Matters of Interest
     Key Performance Parameter. Although information assurance is not required
     to be a KPP in operational requirements documents, without them, milestone
     decision authorities increase the risk that weapon systems program managers
     will not achieve secure information exchanges before planned production
     decisions. We suggested to the Joint Staff (J-8) that information assurance be
     established as mandatory KPP. The J-8 responded that interoperability was the
     only mandatory KPP and that KPPs were driven by the capabilities deemed most
     essential by the warfighter and validated by the requirements authority in
     accordance with guidance in Chairman of the Joint Chiefs of Staff
     Instruction 3170.01B, “Requirements Generation System,” April 15, 2001.



                                       28
Furthermore, the J-8 stated that the Chairman of the Joint Chiefs of Staff
Instruction 3170.01B does require information assurance for most information
technology systems and, in some cases, information assurance has been made a
KPP. For example, the Global Information Grid Capstone Requirement
Document requires information assurance as a KPP. Therefore, ORDs for
programs operating within the GIG must have information assurance
requirements, including designating information assurance as a KPP, as
appropriate.

Information Assurance Strategies. DoD policy requires chief information
officers to review and confirm that the information assurance strategy is
consistent with DoD policies, standards, and architectures. The ASD(C3I) is
required to review the information assurance strategy for all major DoD systems
before the milestone decision authority approves the DoD system for entry into
the next acquisition phase. The ASD(C3I) uses a checklist based on the Defense
Information Technology Security Certification Accreditation Process to review
information assurance strategies.

Over the past 2 years, the ASD(C3I) has reviewed and had input on
approximately 40 programs. The ASD(C3I) could not provide the number of
information assurance strategies that had been disapproved, but commented that
the goal was to work with program managers toward successful information
assurance strategies. For non-acquisition DoD systems such as those developed
from advanced concept technology demonstrations, the designated milestone
decision authority is required to certify that the system complies with the
Defense Information Technology Security Certification Accreditation Process
procedures before approving the system for fielding. Accordingly, chief
information officers, program managers, and testers must be knowledgeable of
those procedures. However, a requirement did not exist for the ASD(C3I) to
provide oversight for those non-acquisition DoD systems to verify that the
systems had an information assurance strategy and were accredited.

Beginning in July 2002, the National Security Telecommunication and
Information Systems Security Policy requires that all U. S. Government
departments limit the acquisition of commercial off-the-shelf information
assurance and information assurance-enabled products to those that have been
evaluated and validated in accordance with the:

       •   Common Criteria,

       •   National Information Assurance Partnership Evaluation and
           Validation Program, and

       •   Federal Information Processing Standards Publications Validation
           Program.

The ASD(C3I) stated that chief information officers, program managers, and
testers in Defense agencies and Military Departments will have to execute the
policy.



                                   29
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category determines an acquisition
   program’s level of review, decision authority, and applicable procedures. The
   acquisition categories consist of I, major Defense acquisition programs; IA,
   major automated information systems; II, major systems; III, programs not
   meeting the criteria for acquisition categories I, IA, or II; and IV, programs
   designated as such by the Army, Navy, and Marine Corps.

   Advanced Concept Technology Demonstration. An advanced concept
   technology demonstration is used to determine the military utility of proven
   technology and to develop the concept of operations that will optimize
   effectiveness. Advanced concept technology demonstrations are not themselves
   acquisition programs, but are designed to provide a residual, usable capability
   upon completion, and possibly transition into acquisition programs. Funding is
   programmed to support the demonstration for up to 2 years in the field.

   Architecture. An architecture is the structure of components, their
   interrelationships, and the principal guidelines governing their design and
   evolution over time.

   Capstone Requirements Document. A capstone requirements document is a
   document that contains capabilities-based requirements for developing individual
   ORDs by providing a common framework and operational concept to guide their
   development. It is an oversight tool containing overarching requirements for a
   system-of-systems or family-of-systems.

   Combat Developer. A combat developer is the command or agency that
   formulates doctrine, concepts, organization makeup, materiel requirements, and
   objectives. Generically, it represents the user community role in the materiel
   acquisition process.

   Command, Control, Communications, Computers, and Intelligence Support
   Plan. A C4I support plan describes system dependencies and interfaces in
   sufficient detail to enable program managers and operational testers to test
   interoperability key performance parameters derived from information exchange
   requirements.

   Command, Control, Communications, Computers, and Intelligence
   Surveillance and Reconnaissance Architecture Framework. The C4I
   surveillance and reconnaissance architecture framework provides rules,
   guidance, and product descriptions for developing and presenting different
   architectural views of a given system to ensure a common denominator for
   understanding, comparing, and integrating architectures across DoD.

   Critical Operational Issue. A critical operational issue is a key operational
   effectiveness issue or operational suitability issue that must be examined in the
   operational test and evaluation to determine the system’s capability to perform
   its mission.

                                       30
Defense Acquisition Executive Summary. The Defense Acquisition Executive
Summary is a multi-part document, which reports program information and
assessments; program manager, program executive office, and Component
acquisition executive comments; and cost and funding data primarily for
Acquisition Category I programs.

Defense-in-Depth. Defense-in-depth integrates the capabilities of people,
operations, and technology to establish multi-layer, multi-dimension protection
of networked systems. The concept is to deploy defenses at multiple locations
in successive layers in the protected information environment. Defense–in–
depth focuses on the local computing environments (or enclaves), enclave
boundaries, networks that link enclaves, and supporting infrastructures.

Developmental Test and Evaluation. Developmental test and evaluation is any
engineering type of test used to verify the status of technical progress, verify
that design risks are minimized, substantiate achievement of contract technical
performance, and certify readiness for initial operational testing. Generally,
those tests are instrumented and measured by engineers, technicians, or soldier
operator-maintainer test personnel in a controlled environment to facilitate
failure analysis.

Global Information Grid. The Global Information Grid provides the
foundation for network-centric warfare, information superiority, decision
superiority, and ultimately, full spectrum dominance. The GIG includes any
system, equipment software, or service that transmits information to, receives
information from, routes information among or interchanges information among
other equipment, software, and services. Non-GIG Information Technology is
stand-alone, self-contained, or embedded information technology that is not or
will be connected to the enterprise network.

Information Assurance. Information assurance is information operations that
protect and defend the information and information systems by ensuring their
availability, integrity, authenticity, confidentiality, and nonrepudiation.
Information assurance provides for the restoration of information systems by
incorporating protection, detection, and reaction capabilities.

Information Exchange Requirements. Information exchange requirements
characterize the information exchanges to be performed by a proposed system
and identify who exchanges what information with whom, why the information
is necessary, and how the users will employ that information.

Information Technology. Information technology includes any equipment or
interconnected system or subsystem of equipment that is used in automatic
acquisition, storage, manipulation, management, movement, control, display,
switching, interchange, transmission, or reception of data or information.
Information technology includes computers, software, firmware, ancillary
equipment and similar procedures, services, and related resources.

Information Warfare. Information warfare is used to achieve information
superiority by affecting adversary information, information-based processes,


                                   31
information systems, and computer-based networks while defending one’s own
information, information-based processes, information systems, and
computer-based networks.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together.

Interoperability Certification Process. The interoperability certification
process consists of two interoperability certifications; the first for requirements
and supportability documents and the second for interoperability certification
testing. The Chairman of the Joint Chiefs of Staff (J-6) and the Joint
Interoperability Test Command are responsible for requirements and
supportability document certification and for interoperability certification
testing, respectively.

Interoperability Senior Review Panel. The Interoperability Senior Review
Panel recommends programs and systems deemed to have significant
interoperability deficiencies for the Interoperability Watch List. The Panel is
composed of the staffs from the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the ASD(C3I); the Director, Operational Test and
Evaluation; the USJFCOM, and the Joint Staff.

Joint Distributed Engineering Plant. The Joint Distributed Engineering Plant
is a DoD-wide effort to link existing Defense agencies and Military Departments
and joint combat system engineering and test sites (including design activities,
software support activities, test and evaluation facilities, training commands,
and operational units). The Joint Distributed Engineering Plant is designed to
improve the interoperability of weapon systems and platforms through rigorous
testing and evaluation in a replicated battlefield environment.

Joint Mission Area. A joint mission area is a functional group of joint tasks
and activities that share a common purpose and facilitate joint force operations.

Joint Operational Architecture. A joint operational architecture describes
tasks and activities, operational elements, and information flows required to
accomplish or support military operations; defines types of information
exchanged, frequency of exchange, which tasks and activities are supported by
information exchanges, and nature of information exchanges in detail sufficient
to ascertain specific interoperability requirements.

Joint Requirements Oversight Council. The Joint Requirements Oversight
Council assists the Chairman of the Joint Chiefs of Staff in identifying and
assessing the priority of joint military requirements (including existing systems
and equipment) to meet the national military strategy. The council, chaired by
the Vice Chairman of the Joint Chiefs of Staff and consisting of all the Vice
Chiefs of the Military Departments including the Assistant Commandant of the
Marine Corps, directly supports the Defense Acquisition Board through review,
validation, and approval of key cost, schedule, and performance parameters at



                                     32
        the start of the acquisition process, before each milestone review, and as
        requested by the Under Secretary of Defense for Acquisition, Technology, and
        Logistics.

        Joint Systems Architecture. The joint systems architecture identifies and
        describes those DoD systems and their interconnections needed to accomplish
        the tasks and activities described in the Joint Operational Architecture.

        Joint Technical Architecture. The joint technical architecture is a common set
        of mandatory information technology standards, which are primarily interface
        standards and guidelines to be used by all emerging systems and systems
        upgrades, including advanced concept technology demonstrations. The joint
        technical architecture can be used to establish a system’s technical architecture,
        and is applicable to all C4I and automated information systems and the
        interfaces of other key assets, such as weapon systems and sensors, with C4I
        systems.

        Key Performance Parameters. Key performance parameters are capabilities
        or characteristics so significant that failure to meet the threshold or minimum
        acceptable value can be cause for the concept or system selected to be
        reevaluated or for the program to be reassessed or terminated.

        Measure of Effectiveness. A measure of effectiveness is the quantitative
        expression defined to measure operational capabilities in terms of engagement of
        battle outcomes.

        Measures of Performance. Measures of performance measure a system’s
        technical performance expressed as speed, payload, range, time on station,
        frequency, or other distinctly quantifiable performance features. Several
        measures of performance may be related to the achievement of a particular
        measure of effectiveness.

        National Security System. A national security system is any
        telecommunication or information system operated by the United States
        Government, whose function, operation, or use involves intelligence activities,
        cryptologic activities related to national security, command and control of
        military forces, equipment that is an integral part of a weapon system, or is
        critical to the direct fulfillment of military or intelligence missions.

        Network-Centric Warfare. Network-centric warfare14 allows a warfighting
        force to achieve improved information positions in the form of common
        operational pictures that provide the basis for shared situational awareness and
        knowledge, and a resulting increase in combat power.

        Operational Architecture View. The operational architecture view is a
        description of the tasks and activities, operational elements, and information

14
 An in-depth discussion of network-centric warfare is provided in the book, Network Centric Warfare:
Developing and Leveraging Information Superiority, 2nd Edition (Revised), by David S. Alberts, John J.
Garstka, and Frederick P. Stein, C4I Surveillance and Reconnaissance Cooperative Research Program,
August 1999.

                                                 33
flows required to accomplish or support a military operation. This architecture
view defines the types of information exchanged, the frequency of exchange,
which tasks and activities are supported by the information exchanges, and the
nature of information exchanges in detail sufficient to ascertain specific
interoperability requirements.

Operational Effectiveness. Operational effectiveness is the overall degree of
mission accomplishment of a system when representative personnel use the
system in the environment planned or expected for operational employment of
the system, considering organization, doctrine, tactics, survivability,
vulnerability, and threat.

Operational Requirements Document. The operational requirements
document states the user’s objectives and minimum acceptable requirements for
the operational performance of a proposed concept or system.

Operational Suitability. Operational suitability is the degree to which a system
can be placed satisfactorily in field use with consideration being given to
availability, compatibility, transportability, interoperability, reliability, wartime
usage rates, maintainability, safety, human factors, manpower supportability,
logistic supportability, natural environmental effects, documentation, and
training requirements.

Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons,
equipment, or munitions to determine their effectiveness and suitability for use
in combat by typical military users and the evaluation of the results of such
tests.

Planning, Programming, and Budgeting System. The Planning,
Programming, and Budgeting System is the primary resource allocation process
of DoD. It is a formal, systematic structure for making decisions on policy,
strategy, and the development of forces and capabilities to accomplish
anticipated missions.

Program. A program is an acquisition funded by research, development, test
and evaluation or procurement appropriations, or both, with the express
objective of providing a new or improved capability in response to a stated
mission need or deficiency.

Program Objectives Memorandum. The Program Objectives Memorandum is
an annual memorandum, which the DoD Component Heads submit to the
Secretary of Defense, that recommends the total resource requirements and
programs within the parameters of the Secretary of Defense’s fiscal guidance.

Risk. Risk is a combination of the likelihood that a threat will occur, the
likelihood that a threat occurrence will result in an adverse impact, and the
severity of the resulting adverse impact.




                                     34
System. A system is the organization of hardware, software, materiel,
facilities, personnel, data, and services needed to perform a designated function
with specified results, such as the gathering of specified data, its processing, and
delivery to users.

System-of-Systems. System-of-systems, also known as a family-of-systems, is
several independent programs which, when integrated, form a system to meet
the needs of a broad mission area such as missile defense. The performance of
the individual component programs making up the system-of-systems is
specified in the respective program ORDs; the overarching requirements for the
system-of-systems is contained in a CRD.

Systems Architecture View. The systems architecture view is a description,
including graphics, of systems and interconnections providing for, or
supporting, warfighting functions. This architecture view associates physical
resources and their performance attributes to the operational view and its
requirements in accordance with standards defined in the technical architecture.

Technical Architecture View. The technical architecture view is the minimum
set of rules governing the arrangement, interaction, and interdependence of
system parts or elements, whose purpose is to ensure that a conformant system
satisfies a specified set of requirements. This architecture view includes a
collection of the technical standards, conventions, rules, and criteria organized
into profile(s) that govern system services, interfaces, and relationships for
particular systems architecture views and that relate to particular operational
views.

Test and Evaluation Master Plan. The test and evaluation master plan
(TEMP) documents the overall structure and objectives of the test and
evaluation program. It provides a framework within which to generate detailed
test and evaluation plans and it documents schedule and resource implications
associated with the test and evaluation program. The TEMP identifies the
necessary developmental test and evaluation, operational test and evaluation, and
live-fire test and evaluation activities. Further, the TEMP relates program
schedule, test management strategy and structure, and required resources to
critical operational issues, critical technical parameters, objectives and
thresholds documented in the operational requirements document, evaluation
criteria, and milestone decision points.

Test Integration Working Group. The Test Integration Working Group
facilitates the integration of test requirements through close coordination
between the materiel developer, combat developer, logistician, and
developmental and operational testers to minimize development time and cost,
and preclude duplication between developmental and operational testing.




                                    35
Appendix C. Interoperability Action Plan of the
            Under Secretary of Defense for
            Acquisition, Technology, and
            Logistics for Command and
            Control Systems15

                                                                                                       100%
        Interoperability



                                                    New and Enhanced Legacy Systems
                                                                  4




                                                         Policies, Directives, Processes,
     Phaseout Legacy                                     Standards, and Architectures 2
     (FIOP) (JI&I) (JDEP) 3




                                          Doctrine, Organization (Training, Tactics, Techniques, Procedures),
                                          Leadership, Personnel, and Facilities 1


 2000                2001                        2003              2005                                     2008
                                                                                              Legacy command and
                   Policy               Overarching battle         “Readily Resolvable”       control
                   modifications        management/                interoperability           interoperability
                   and transition       command and                problems solved for        problems resolved;
                   plans in place       control begin to           legacy command and         Interoperability
                                        take effect                control systems            institutionalized in
                                                                                              processes and
                                                                                              Architectures


15
 The numbers in the diagram relating to the elements required to achieve interoperability are described
on the next page.


                                                   36
According to the Director of Interoperability, Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics, the following four major
elements are needed to achieve interoperability for command and control
systems.

       1. Doctrine, organization, training, tactics, techniques and procedures,
          leadership, personnel, facilities, which form the foundation for any
          military operation.

       2. Policies, directives, processes, standards, and architectures without
          which real progress is impossible. Policies are necessary; however
          they are not sufficient.

       3. To transition from legacy DoD systems to the future vision,
          overarching battle management command and control programs are
          necessary to provide for legacy DoD systems’ integration and
          transition to the desired interoperability state. Those overarching
          programs are:
          • The Family of Interoperable Operational Pictures (FIOP), which
              will provide for systems engineering solutions for achieving
              interoperability of more than 30 critical battle management
              command and control systems (fielded and in development),
              within appropriate “communities of shared interest,” from the
              combatant commander to the soldier, sailor, marine, airman, and
              coalition partners, including the seams between the Single
              Integrated Air Picture, a Single Integrated Ground Picture, a
              Single Integrated Maritime Picture, and the Common Operational
              Picture/Common Tactical Picture.
          • The Joint Interoperability and Integration (JII) reviews legacy and
              future systems’ interoperability requirements in the total context
              of doctrine, operations, training, materiel, logistics, personnel,
              and facilities, and is tied to an “Interoperability Transition Fund”
              intended to focus on priority interoperability fixes.
          • The Joint Distributed Engineering Plant (JDEP) is designed to
              improve interoperability through distributed testing and
              evaluation involving the Services, DoD Components, and
              eventually industrial and allied resources.
       4. New systems such as the Joint Tactical Radio System will contribute
          to the interoperability solution. Many marginally interoperable
          legacy systems will be phased out. The Quadrennial Defense Review
          and the normal Planning, Programming, and Budgeting System
          process should be used to determine priorities and funding for those
          systems.

The Under Secretary of Defense for Acquisition, Technology, and Logistics,
estimates that if the overarching programs did not transition from the legacy to
the future vision, the time to achieve the desired interoperability state would
most likely double.


                                    37
Appendix D. Global Information Grid
   Global Information Grid. The GIG provides the foundation for network-
   centric warfare, information superiority, decision superiority, and ultimately full
   spectrum dominance as depicted below.




   Global Information Grid as the Foundation for Achieving Full Spectrum
   Dominance
   Source: Capstone Requirements Document for the GIG


   The concept of the GIG evolved from concerns about the interoperability and
   end-to-end integration of automated information systems. Issues such as
   streamlined management and improved information infrastructure investment
   also contributed to the heightened interest in a GIG. However, the real demand
   for a GIG originates from the requirement for information and decision
   superiority to achieve full spectrum dominance, as expressed in Joint
   Vision 2020. The ability to achieve shared situational awareness and knowledge
   among all elements of a joint force, including allied and coalition partners, is
   increasingly viewed as a cornerstone to transform future warfighting
   capabilities.

   Network-Centric Warfare. The GIG capstone requirement document states
   that network-centric warfare allows a warfighting force to achieve improved
   information positions in the form of common operational pictures that provide
   the basis for shared situational awareness and knowledge, and a resulting
   increase in combat power.

   Information Superiority. Information superiority is the capability to collect,
   process, and disseminate an uninterrupted flow of information while exploiting
   or denying an adversary’s ability to do the same. Information superiority is
   achieved in a noncombat situation or one in which there are no clearly defined
   adversaries when friendly forces have the information necessary to achieve

                                         38
operational objectives. Information superiority provides the joint force with a
competitive advantage only when it is effectively translated into superior
knowledge and decisions. The joint force must be able to take advantage of
superior information converted to superior knowledge to achieve “decision
superiority.”

Decision Superiority. Decision superiority is to arrive at better decisions and
implemented faster than an opponent can react, or in a noncombat situation, at a
tempo that allows the force to shape the situation or react to changes and
accomplish its mission. Decision superiority does not automatically result from
information superiority. Organizational and doctrinal adaptation, relevant
training and experience, and the proper command and control mechanisms and
tools are equally necessary.

Full Spectrum Dominance. The transformation of the joint force to reach full
spectrum dominance rests upon information superiority as a key enabler and our
capacity for innovation. The label full spectrum dominance implies that U.S.
Forces are able to conduct prompt, sustained, and synchronized operations with
combinations of forces tailored to specific situations and with access to and
freedom to operate in all domains: space, sea, land, air, and information.
Additionally, given the global nature of our interests and obligations, the United
States must maintain its overseas presence forces and the ability to rapidly
project power worldwide in order to achieve full spectrum dominance.




                                    39
Appendix E. Multiple Factors Affecting the
            Implementation of Interoperability
            Requirements in the Weapon
            System Development Process
   The following diagram shows the complex relationships governing the
   development of an interoperable system. The diagram shows four relationships
   for achieving interoperability.

          •   People and Organizations. Organizations with responsibility for
              verifying and validating interoperability requirements before
              production decisions are shown in the diagram. Milestone decision
              authorities can not approve DoD systems for production before
              interoperability requirements are determined and tested.

          •   Policies. Program managers of DoD systems need to comply with
              numerous policies, doctrines, and architectures that define how the
              systems must operate in different environments and circumstances
              around the world. Therefore, combat developers must clearly depict
              the doctrine, training, organizations, soldiers, facilities, and
              relationship of the system to joint and allied systems before
              developing and acquiring a system.

          •   Integrated Testing Environments. Military Departments need test
              facilities and equipment to test the achievement of interoperability
              requirements for a DoD system in development. To realistically test
              how a system will interoperate in a joint and allied environment as
              envisioned in the GIG and Joint Vision 2020, additional equipment
              and resources may be required or shared with integrated testing
              environments.

          •   Cost. The Planning, Programming, and Budgeting System is a
              structured process that results in funding for DoD systems. Materiel
              developers of DoD systems attempt to maintain the planned
              acquisition strategy. If the acquisition strategy is not maintained,
              adjustments to the funding process should be made that are not
              always possible because of other DoD funding priorities.

   All of the relationships must be met for a DoD system to meet the user’s
   requirement for interoperability.




                                      40
                                              Multiple Factors Affecting the Implementation
                                                of Interoperability Requirements in the
                                                 Weapon Systems Development Process
                                                                                                         Integrated Testing
            People and Organizations                                               DoD Sy                   Environment
                                                                                         st       ems                                 ACTDs and
        CINCs                                                              Informa                  Global                            Experimentation
                                    JCS                                              tion As
        USJFCOM                                                                             surance
                                                                                                    Information
                                       (J-6)(J-8) (J-3)




                                                                                     ent
                                         USD (AT&L)                                                 Grid




                                                                                           Law
      USD Comptroller




                                                                                  ipm
                                          ASD C3I




                                                                                            cy/


                                                                              E qu
                                                Military Department CIOs




                                                                                       Poli
     Combat Developers                                                                                            Testing
     (Authors of ORDs)                                                                                                               Facilities
                                                    DOT&E
                                                     DISA/JITC                                                       g
                                                                                                                     ic
     Materiel Developers                                                                                      a i nin
                                                        Milestone
                                                                                                             e
                                                                                                           st
                                                                                                           R




41
                                                        Decision Authority
                                                                                                         Su alist
                                                                                                                                                  Interoperability
                           Doctrine                                                                                                               in DoD Systems
                                                            DoD Instruction 5000 series




                  n
                                                            DoD Instruction 4630 series




               tio
                                                            CJCS Instruction 3170.01B




             ali
                                                            CJCS Instruction 6212.01B




           Co
                        int
                                                            Military Department Regulations




                       ce


                     Jo
                                       JCS J-6




                 e rvi
                                       Certification




                S
                                                                                                                          Congress
                                       (CJCSI 6212.01B)
                                                                                                                          PPBS
       Joint Vision           Architecture
        2020
                                                            CINCs




                                          Op
                                            e ra
                                                            Missions




                           Sys

                             T  e
                                                            Coalitions




                                  c
                                               tion

                               tem
       Policies                                                                                   Cost


                                     s
                                                   al




                                    hni
                                        cal
Acronyms

ACTD                Advanced Concept Technology Demonstration
CINC                Commander-in-Chief
CJCSI               Chairman of the Joint Chiefs of Staff Instruction
CIO                 Chief Information Officer
DODI                Department of Defense Instruction
DOT&E               Director, Operational Test and Evaluation
JCS                 Joint Chiefs of Staff
J-3                 Director for Operations, Joint Chiefs of Staff
J-6                 Director for Command, Control, Communications and Computers
                        Systems, Joint Chiefs of Staff
J-8                 Director for Force Structure, Resources, and Assessments, Joint
                        Chiefs of Staff
JITC                Joint Interoperability Test Command
PPBS                Planning, Programming, and Budgeting System
USD(AT&L)           Under Secretary of Defense for Acquisition, Technology, and
                        Logistics
USD (Comptroller)   Under Secretary of Defense (Comptroller)/Chief Financial Officer
USJFCOM             U.S. Joint Forces Command




                                   42
Appendix F. Interoperability and Information
            Assurance Policies
   The following discusses relevant DoD and Joint Staff policies on interoperability
   and information assurance.

   Interoperability Policy. DoD Directive 4630.5, “Interoperability and
   Supportability of Information Technology (IT) and National Security Systems
   (NSS)” January 11, 2002; DoD Instruction 4630.8, “Procedures for
   Interoperability and Supportability of Information Technology (IT) and National
   Security Systems (NSS),” May 2, 2002; DoD Instruction 5000.2, “Operation of
   the Defense Acquisition System,” April 5, 2002; DoD Regulation 5000.2-R,
   “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
   Major Automated Information System (MAIS) Acquisition Programs,” April 5,
   2002; Chairman of the Joint Chiefs of Staff Instruction 3170.01B,
   “Requirements Generation System,” April 15, 2001; and Chairman of the Joint
   Chiefs of Staff Instruction 6212.01B, “Interoperability and Supportability of
   National Security Systems, and Information Technology Systems,” May 8,
   2000, provide policy on interoperability.

           DoD Directive 4630.5. DoD Directive 4630.5 requires that information
   technology and national security systems’ interoperability and supportability
   needs be identified through the requirements definition and validation process,
   during the acquisition process, and updated as necessary throughout the system’s
   life. Those requirements will be specified to a level of detail that allows
   verification of interoperability throughout a system’s life. Also, those
   requirements will be characterized through operational mission area integrated
   architectures, operational concepts, and capstone requirements documents
   (CRDs) derived from joint mission areas and business and administrative
   mission areas. The joint operational architecture, the joint systems architecture,
   and the joint technical architecture serve as the foundation for development of
   operational mission area integrated architectures. Operational mission area
   integrated architectures connect information technology and the national security
   systems’ interoperability and supportability requirements in a family-of-systems
   and system-of-systems context. Information technology and national security
   systems’ information exchange requirements and associated interoperability key
   performance parameters (KPPs) are to be derived from the operational view of
   the mission area integrated architecture. Further, DoD is required to develop,
   acquire, and deploy C3I systems and equipment for U.S. Forces that are
   compatible with existing and planned C3I systems.

           DoD Instruction 4630.8. DoD Instruction 4630.8 requires that joint,
   combined, coalition, and interagency missions must be supported through
   interoperable information technology and national security systems in global
   operations across the peace-conflict spectrum. All information technology and
   national security systems for U.S. Forces use are to be considered for use by
   joint, allied, and other U.S. Government departments and agencies.
   Information technology and national security systems’ interoperability and


                                       43
supportability requirements are to be identified through the mission area
integrated architectures. Interoperability requirements are required to be
managed, evaluated, and reported throughout the life of the system. All DoD
acquisition category programs will use a C4I support plan to document
interoperability requirements. Additionally, interoperability and supportability
requirements are required to be balanced with the need for information
assurance. The DoD Components are required to submit mission need
statements, CRDs, ORDs, and C4I support plans for all information technology
and national security system acquisitions or procurements to the Joint Staff for
review to comply with joint policy, doctrine, and interoperability requirements.
Additionally, requirements documents are to be reviewed by the Director,
Defense Information Systems Agency for compliance with the DoD Joint
Technical Architecture.

Furthermore, the Joint Staff is to develop, approve, and direct the use of the
Joint Mission Area-based Joint Operational Architecture and direct its use when
developing information technology and national security systems’
interoperability requirements. The Instruction states that the Director,
Operational Test and Evaluation is to develop policy and processes to test and
evaluate information technology and national security systems in order to
accurately assess the level of interoperability of the tested system with the
intended family-of-systems with which it must operate. Additionally, the
Director, Operational Test and Evaluation is required to confirm that the TEMP
has identified information technology and national security systems’
interoperability requirements for programs tested under the Director,
Operational Test and Evaluation’s oversight.

       DoD Instruction 5000.2. DoD Instruction 5000.2 states that the user
representative, with support from the operational test and evaluation community,
develops the needs expressed in the mission need statement into requirements in
the form of CRDs, if applicable, and ORDs. CRDs contain capabilities-based
requirements to develop individual ORDs that provide a common framework
and operational concept. The CRD is an oversight tool that establishes
overarching requirements for a family of systems. Validated ORDs translate the
mission needs statement and, if applicable, CRDs into broad, flexible, and
time-phased operational goals that are further detailed and refined into specific
operational capability requirements in the final ORD. The appropriate
requirements authority validates all mission needs statements, CRDs, and
ORDs.

        DoD Regulation. DoD Regulation 5000.2-R states that, during the
requirements generation process, users will develop interoperability KPPs for all
CRDs and ORDs. In developing the ORD, the ORD sponsor considers using
the products described in the C4 I Surveillance and Reconnaissance Architecture
Framework and universal resources such as the joint technical architecture. The
joint operational architecture and the joint technical architecture serve as the
foundation for evolutionary development of those mission area integrated
architectures. Mission area integrated architectures are to state information
technology and national security systems’ interoperability requirements in a
family-of-systems mission area context. The user is to derive family-of-system


                                   44
information technology and national security systems information exchange
requirements from the operational information exchange requirements of the
mission area integrated architecture.

Further, the regulation requires the overarching integrated product team to
assess family-of-system or system-of-system capabilities for DoD systems within
mission areas in support of mission area operational architectures developed by
the Joint Staff before milestone decisions. Further, the ORD sponsor is to
characterize information interoperability, as applicable, within a family-of-
systems, a mission area, and a mission for all information technology and
national security systems. Available mission area integrated architectures are to
be used to develop information technology and national security systems’
interoperability requirements. The regulation also states that the joint
operational architecture and the joint technical architecture serve as the
foundation for evolutionary development of mission area integrated
architectures. The implementation of the joint technical architecture is required
for all new, or changes to existing, information technology systems, including
National Security systems.

The regulation also requires that all major Defense acquisition programs,
programs on the Office of the Secretary of Defense Test and Evaluation
Oversight list, legacy systems, and all programs and systems that must be
interoperable with them be subject to interoperability evaluations throughout
their life cycles to validate their ability to support mission accomplishment. At
their discretion, the Under Secretary of Defense for Acquisition, Technology,
and Logistics; the ASD(C3I); the Chairman of the Joint Chiefs of Staff ; the
Commander, USJFCOM; and the Director, Operational Test and Evaluation can
place programs and systems deemed to have significant interoperability
deficiencies on the Interoperability Watch List (Watch List). Program managers
with a program on the Watch List must take corrective actions to address
identified interoperability deficiencies to remove their programs from the Watch
List.

The regulation requires that, for programs on the Watch List, program
managers will provide periodic updates of their status towards correcting
identified deficiencies to senior representatives of Under Secretary of Defense
for Acquisition, Technology, and Logistics; ASD(C3I); the Director,
Operational Test and Evaluation; the USJFCOM; and the Joint Staff. The
program managers of DoD systems, or other cognizant officials, and the
responsible test organization (either developmental or operational), in
conjunction with JITC, are to provide those updates. Those updates are to
support an assessment on whether interoperability issues are being adequately
addressed, and whether a status change is warranted; for example, whether the
program or system should be removed from the Watch List, kept on the Watch
List, or proposed for Director, Operational Test and Evaluation oversight. Staff
members of the Under Secretary of Defense for Acquisition, Technology, and
Logistics; the ASD(C3I); the Director, Operational Test and Evaluation; the
USJFCOM; and the Joint Staff are to prepare quarterly reports summarizing the
activities of systems and programs on the Watch List.



                                   45
        Joint Staff Instruction 3170.01B. Chairman of the Joint Chiefs of Staff
Instruction 3170.01B requires that the Joint Staff J-6 certify mission need
statements, CRDs, and ORDs, regardless of acquisition category, for
conformance with joint C4I policy and doctrine, technical architectural integrity,
and interoperability standards. The Joint Staff J-6 is to review and comment on
interoperability KPPs and coordinate C4I issues concerning mission need
statements, capstone requirement documents, and ORDs with the appropriate
agencies.

The Joint Staff J-6 is to forward for coordination the C4I interoperability
requirements certification to the Joint Requirement Oversight Council for major
DoD acquisition programs, major automated information systems, and special
interest programs or to the sponsoring DoD Component for major systems and
below programs. Failure for those systems to meet a KPP threshold in an ORD
can be a reason for the system selection to be reevaluated or for the program to
be reassessed or terminated.

        Joint Staff Instruction 6212.01B. Chairman of the Joint Chiefs of Staff
Instruction 6212.01B requires the USJFCOM to provide comments to the Joint
Staff J-6 on interoperability issues for all acquisition category programs to
ensure that each ORD contains interoperability KPPs and information exchange
requirements. Furthermore, commanders of combatant commands, Military
Departments, and Defense agencies are to incorporate interoperability testing
into their overall testing plans in coordination with the Defense Information
Systems Agency (DISA) and Joint Interoperability Test Center (JITC). In
addition, JITC is to certify test results for all interoperability system tests.

       DoD Chief Information Officer Memorandum. In DoD Chief
Information Officer Guidance and Policy Memorandum No. 8-8001,
March 31, 2000, the DoD Chief Information Officer authorizes the Director,
Operational Test and Evaluation to include critical operational issues addressing
interoperability and information assurance in the Global Information Grid
operational test and evaluation.

Information Assurance Policy. DoD Regulation 5000.2-R, DoD
Instruction 5200.40, “DoD Information Technology Security Certification and
Accreditation Process (DITSCAP),” December 30, 1997; Chairman of the Joint
Chiefs of Staff Instruction 3170.01B; Chairman of the Joint Chiefs of Staff
Instruction 6510.01C, “Information Assurance and Computer Network
Defense,” May 1, 2001; and Director, Operational Test and Evaluation
memorandum, “Policy for Operational Test and Evaluation of Information
Assurance,” November 17, 1999, provide policy on information assurance.

       DoD Regulation. DoD Regulation 5000.2-R requires program
managers to incorporate information assurance requirements into program
design functions to ensure availability, integrity, authenticity, confidentiality,
and nonrepudiation of critical system information. Further, program managers
are to manage information systems using the best processes and practices to
reduce security risks, including the risks to timely accreditation.



                                    46
Furthermore, the regulation requires that information assurance testing be
conducted on information systems to ensure that planned and implemented
security measures satisfy ORD and System Security Authorization Agreement
requirements when the system is installed and operated in its intended
environment. The program manager, operational test and evaluation authority,
and designated approving authority are to coordinate and determine the level of
risk associated with operating the system and the extent of security testing
required. Requirements to reconstitute or recover information system
capabilities damaged by information assurance threat agents are also to be tested
during operational test and evaluation.

The regulation requires that all weapon, command, control, communications,
computers, intelligence, surveillance, and reconnaissance, and information
programs that are dependent on external information sources, or that provide
information to other DoD systems, be assessed for information assurance. The
level of information assurance testing depends on the system risk and
importance. Systems with the highest importance and risk are to be subject to
penetration-type testing prior to the beyond low-rate initial production decision.
Systems with minimal risk and importance are to be subject to normal National
Security Agency security and developmental testing, but not subject to field
penetration testing during operational test and evaluation.

        DoD Instruction. DoD Instruction 5200.40 establishes the DoD
Information Technology Security Certification and Accreditation Process for
security certification and accreditation of unclassified and classified information
technology. The Process sets forth the activities and management structure to
certify and accredit information technology systems that will maintain the
security posture of the Defense Information Infrastructure. The Process
requires a System Architecture Analysis, which requires the system architecture
to comply with the Systems Security Authorization Agreement architecture
description. The interfaces between this and other systems are to be identified
and the interfaces evaluated to assess their effectiveness in maintaining the
security posture of the infrastructure.

        Joint Staff Instruction 3170.01B. Chairman of the Joint Chiefs of Staff
Instruction 3170.01B states that information assurance is required for all DoD
systems that are used to enter, process, store, display, or transmit DoD
information, regardless of classification or sensitivity. Information assurance
requirements are to be codeveloped and coevolved with those for information
interoperability.

         Joint Staff Instruction 6510.01C. Chairman of the Joint Chiefs of Staff
Instruction 6510.01C provides joint policy and guidance for information
assurance and computer network defense operations. Information assurance is
critical to the military’s ability to conduct warfare and is the responsibility of all
warfighters. Because of the universal nature of the Global Information Grid, a
risk assumed by one organization, at any organization level, can be a risk
imposed on all DoD organizations. Accordingly, the requirement for
implementing information assurance is at all organization levels. The primary
method of using information assurance is through the defense-in-depth strategy.


                                     47
To prevent a potential breakdown of barriers and an invasion of the innermost
or most valuable parts of the system, successive layers and safeguards must be
constructed at different locations in the system. Those different locations are
expressed as local computing networks, enclave boundaries, networks, and
supporting infrastructures. Through a deliberate risk analysis process, program
managers can make effective risk management decisions to ensure that the most
effective defense-in-depth strategy, given the resources available, is deployed.
Additionally, all DoD Components are required to establish an active risk
management and mitigation program for information and information-based
processes, and information systems, such as command, control,
communications, and computer systems; weapon systems; and information
infrastructures used by military forces. The associated information is to be
protected based on the value of the information contained in the system and the
risks associated with its compromise or loss.

        Director, Operational Test and Evaluation Memorandum. The
Director’s memorandum establishes policy for operational test and evaluation of
information assurance for all Director, Operational Test and Evaluation
oversight programs, including weapon systems, C4I surveillance and
reconnaissance systems, and information systems. The policy applies to
acquisition programs that have not reached the production decision. The policy
contains a four-step process to review information assurance during operational
test and evaluation, as follows.

       •   Requirements, Threat, and Test Documentation Review. During
           this step, the Director, Operational Test and Evaluation determines
           the relevance of information-assurance testing based on requirements,
           and assesses vulnerabilities and the importance of program functions
           and missions.

       •   Test Strategy Development. For those programs that were not
           waived in the Step One review, the Director, Operational Test and
           Evaluation conducts a paper vulnerability assessment as part of the
           normal test strategy development using experts, program office
           personnel, operational test activity representatives, and users to
           define the degree to which operational information assurance testing
           is warranted. Test plans are not to be approved unless they contain a
           well-defined strategy for addressing information assurance concerns,
           adequate resources, and appropriate measures against which to test
           stated requirements. Those programs with operational test and
           evaluation waivers for information assurance are to note the waiver
           in their TEMP and test plan.

       •   Review of Information Assurance Development Test and
           Evaluation and Computer Security Certification Results Before
           Entry into Operational Test and Evaluation. For those systems
           considered to possess potentially high or unknown residual
           information assurance risk, the operational test activities are to
           examine development test and evaluation and Defense Information



                                   48
    Technology Security Certification Accreditation Process data,
    including any concurrent operational assessments that may have
    already occurred, in judging the effectiveness of that system.

•   Evaluation of Information Assurance Vulnerabilities During
    Operational Test. Those programs that have undergone Steps One,
    Two, and Three and are still judged to have a high or unknown
    vulnerability are to be subject to field testing as part of the initial
    operational test and evaluation.




                             49
Appendix G. DoD System Interoperability
            Requirements Review Process
The C4I Surveillance and Reconnaissance Architecture Framework documents how
architectures are created. Once an architecture is created, KPPs in the ORD are
defined. The following flow chart shows the interoperability certification review
process. The interoperability certification review process has three stages.


                                                             (d)                               (e)                      (f)
                  Department submits               USJFCOM                                USJFCOM                  Subject
                        ORD                           J-8                                    J-6                   Matter
                                                                                                                   Expert

             ORD entered              (a)
             into the JCPAT                                             (g)         JITC
                                                                                    Plans and Policy                          (h)
                                                                                     Division                JITC
                                                               (d)                                           Database

                                    (b)
          Joint Chiefs
          of Staff (J-8)
                                                       DISA                                                                   (h)
                                                                                                             Checklist
                                                                              Service processes
          Joint Chiefs
                              (c)                                                 ORD
          of Staff (J-6)
                                                       (i)                     No
                                                                                                       (j)         Competes
                                                               Yes                       ORD                       for funds
            No                      Certified for                                        Approval                  (PPBS)
                                    Interoperability
                                        by J-6                                                               Yes              (k)
                                               Approved ORD is not always reentered into the JCPAT




Stage One16
          (a) The Defense agency or Military Department enters the ORD, regardless of
              the acquisition category, into the JCPAT.

          (b) The acquisition category I ORD is forwarded the to the Force Structure,
              Resources, and Assessment Directorate J-8 (Joint Staff J-8), who staffs the
              requirement with the members of the Joint Requirement Oversight Council.

16
     Stage lasts 35 days.


                                                                   50
          (c) The acquisition category II and below ORD is staffed with the Command,
              Control, Communications, and Computers Systems Directorate J-6 (Joint
              Staff J-6).

          (d) The Joint Staff J-6 staffs the acquisition category II and below ORD with
              DISA and the USJFCOM J-8.

          (e) The USJFCOM J-8 staffs the document with the USJFCOM J-6

          (f) The USJFCOM J-6 directs subject-matter experts review the ORD from a
              warfighter perspective to verify that GIG requirements are in the ORD. The
              USJFCOM J-6 receives comments from the subject-matter expert and then
              forwards those and any additional comments back through the chain to the
              Joint Staff J-6.

          (g) DISA staffs the ORD through the Plans and Policy Division which then
              determines the lead JITC division. That division assigns a specific
              subject-matter expert to review the ORD from a technical perspective. After
              the review, the Plans and Policy Division consolidates comments on the ORD
              from the subject-matter expert with those from other JITC divisions.

          (h) JITC subject–matter experts use a checklist to ensure that their mission need
              statements, CRDs, ORDs, C4I support plans, and TEMPs meet DoD policy
              requirements. Based on the results of the checklist review, comments are
              entered in the JITC database and forwarded to the Joint Staff J-6 through the
              DISA. The JITC database maintains historical data on documentation for
              DoD systems until operational testing is completed. JITC uses the data in its
              database and information from other sources such as symposiums, field
              demonstrations, or program managers to identify interoperability and
              information assurance requirements.

Stage Two17
          (i) If the Joint Staff J-6 does not certify the ORD in stage one, the ORD, with
              comments, is returned to the Defense agency or Military Department for
              resolution of interoperability issues. After the issues identified in stage one
              are resolved, stage two, which is the same process as stage one, begins. If no
              deficiencies are found by the Joint Staff J-6, the ORD may be certified for
              interoperability.

          (j) After certification for interoperability, the Joint Staff J-6 returns the ORD to
              the Military Department or the Defense agency, as applicable. The Military
              Department or the Defense agency is responsible for ORD approval.




17
     Stage two lasts 21 days.


                                                51
      (k) When the ORD is approved, the requirement competes for funding in the
          Planning, Programming, and Budgeting System process. However, no
          requirement exists for Military Departments or Defense agencies to submit
          the final approved ORD to be updated in the JCPAT.

Stage Three18
        Stage III is the posting of the Acquisition Category II or III Milestone Decision
        Authority approved mission need statements, CRD, or ORD. Approved
        documents are filed in the JCPAT with the Joint Staff J-6 certification letter.




18
 Stage three suspense is 15 days after the Joint Requirements Oversight Council or the milestone
decision authority approves the mission need statement, CRD, or ORD and posting the document into the
JCPAT, according to the Chairman of the Joint Chiefs of Staff Instruction 6212.01B.


                                                 52
Appendix H. Organizations with Access to the
            Joint Command, Control,
            Communications, Computers, and
            Intelligence Program Assessment
            Tool

Office of the Secretary of Defense
Assistant Secretary of Defense (Command, Control, Communications, and Computers)
Inspector General of the Department of Defense

Joint Staff
Director for Intelligence (J-2)
Director for Operations (J-3)
Director for Logistics (J-4)
Director for Strategic Plans and Policy (J-5)
Director for Command, Control, Communications, and Computers (J-6)
Director for Operational Plans and Interoperability (J-7)
Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Deputy Chief of Staff Operations and Plans, Headquarters Department of the Army
Commander, Communications and Electronics Command
Commander, Executive Agent Theater Joint Tactical Networks
Commander, Training and Doctrine Command

Department of the Navy
Deputy Assistant Secretary of the Navy
Deputy Chief of Naval Operations (Resources, Requirements, and Assessments)
Director, Equipment and Requirements Division, United States Marine Corps

Department of the Air Force
Deputy Chief of Staff for Air and Space Operations




                                         53
Unified Commands
Commander, U.S. European Command
Commander, U.S. Pacific Command
Commander, U.S. Joint Forces Command
Commander, U.S. Southern Command
Commander, U.S. Central Command
Commander, U.S. Space Command
  North American Aerospace Defense Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command
Commander, U.S. Transportation Command

Other Defense Organizations
Director, Operational Test and Evaluation
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
   Director for Operations
   Director for Acquisitions, Logistics, and Facilities
   Director for Strategic Plans and Policy
   Director for Engineering and Information
   Director for Joint Requirement Analysis and Integration
   Director for Command, Control, Communications, Computers and Intelligence
      Modeling, Simulation, and Assessment
   Director for Applications Engineering Directorate
      Program Planning Office
   Director for Interoperability
   Principal Director for Network Services
   Commander, Joint Interoperability Test Command
   Commander, Joint Spectrum Center
Commander, Joint Theater Air and Missile Defense Organization
Director, Joint Warfighting Capabilities and Assessment
Commander, Missile Defense Agency
Director, National Imagery and Mapping Agency
Director, National Reconnaissance Office
Director, National Security Agency




                                       54
Appendix I. Response to Office of the Secretary
            of Defense and Defense Agency
            Comments Concerning the Report
     Our detailed response to the comments from the Director, Interoperability,
     Office of the Under Secretary of Defense for Acquisition, Technology, and
     Logistics; the Director, Architecture and Interoperability, Office of the
     ASD(C3I); the Inspector General, Office of the Commander, USJFCOM; the
     Inspector General, DISA; the Director, Joint Staff; and the Co-Chair,
     Interoperability Senior Review Panel, on statements in the draft report follow.
     The complete text of those comments is in the Management Comments section
     of this report.

Under Secretary of Defense for Acquisition, Technology, and
  Logistics Comments on Finding and Audit Response
     The Director, Interoperability, Office of the Under Secretary of Defense for
     Acquisition, Technology, and Logistics, commented on the implementation of
     information assurance and the term “combat developers.

     Implementation of Information Assurance. The Director stated that the
     Conclusion section of the report states that, “...information assurance must be
     implemented whenever a system is deemed interoperable...,” and that the
     statement is offered as a given. However, he believed that the statement may
     tend to imply equality of the two related measures. The Director stated that an
     appropriate qualification might be, “Information assurance must be implemented
     appropriately and commensurate to the level of interoperability required.”

     Audit Response. We revised the report as suggested.

     Combat Developers. The Director stated that the term “combat developers”
     was used in the Conclusion section of the report without defining it.

     Audit Response. The term “combat developers” was defined in Appendix B,
     “Definitions of Technical Terms,” of the report. To clarify the Conclusion
     section, we added a footnote to also define the term, which refers to the
     requirements generation process.

Assistant Secretary of Defense (Command, Control,
  Communications, and Intelligence) Comments on Finding
     The Director, Architecture and Interoperability, Office of the ASD(C3I)
     suggested some editorial changes that we considered and made where deemed
     appropriate.


                                        55
U.S. Joint Forces Command Comments on Finding and Audit
  Response
    The Inspector General, USJFCOM commented on analyzing interoperability and
    information assurance, conducting analytical or quantitative modeling and
    simulation, analyzing ORD requirements, comparing the proposed system ORD
    against the ORDs of the systems with which it must interoperate, providing a
    joint perspective concerning interoperability and integration, and comparing
    requirement documents of proposed DoD systems within joint mission area
    architectures.

    Interoperability and Information Assurance Analysis. The Inspector General
    stated that the paragraph stating that “The Commander, USJFCOM did not
    analyze interoperability and information assurance requirements in the
    operational and system architectures for DoD systems as part of the
    interoperability certification process for ORDs” does not accurately reflect the
    requirements review process at the USJFCOM and the required actions as
    directed by Chairman of the Joint Chiefs of Staff Instructions 3170.01B and
    6212.01B. Further, USJFCOM does analyze interoperability and information
    assurance. Without overarching joint mission area architectures, USJFCOM
    analyzes integration requirements in coordination with Chairman of the Joint
    Chiefs of Staff Instructions 3170.01B and 6212.01B from known and existing
    systems as they integrate with existing CRDs.

    Audit Response. As stated in the finding, the analysis of interoperability and
    information assurance requirements that the USJFCOM subject-matter experts
    performed for proposed DoD system’s requirements should be made to ORD
    requirements for other systems that the proposed system will be interoperable
    with in their intended mission architectures in addition to those requirements
    contained in existing CRDs.

    Analytical or Quantitative Modeling and Simulation. The Inspector General
    stated that USJFCOM did not compare ORDs to joint mission architectures
    before system development started because it did not have the resources to
    conduct that level of review. Although USJFCOM strongly disagrees that the
    depth of the ORD review as outlined in the report is a USJFCOM mission,
    USJFCOM would like to be able to conduct the reviews as outlined in the
    report, including detailed analysis.

    Audit Response. In Section 922, Public Law 105-261, Congress expressed its
    sense that the commander of a combatant command should be provided with
    appropriate and sufficient resources for joint warfighting experimentation. It
    listed the responsibilities and authorities that should accompany that designation,
    including improving interoperability and making recommendations to the
    Chairman of the Joint Chiefs of Staff on mission needs statements and ORDs.
    Accordingly, if USJFCOM believes that resources are insufficient, it should
    request the resources needed to fulfill the sense of Congress.




                                        56
ORD Requirements. The Inspector General stated that the requirement to
review ORDs in context with the existing family of systems is not a USJFCOM
requirement. Further, the ORD review process, as outlined in Chairman of the
Joint Chiefs of Staff Instructions 3170.01B and 6212.01B, was to ensure that the
new ORDs were interoperable with the future family of systems as outlined or
described in the CRDs. The CRD details the future system requirements for the
family of systems that include the current and potential innovation resulting
from technology to be added. USJFCOM works with the ORD authors to
ensure that the new ORDs are compliant with the CRDs. Further, the role of
the CRDs is to serve as the road map to future interoperability, which is why
Chairman of the Joint Chiefs of Staff Instructions 3170.01B and 6212.01B
require the traceability of ORD requirements to CRD requirements and not to
the current or existing systems within the particular family of systems. In
addition, USJFCOM does realize that additional efforts are required to ensure
interoperability and, with additional resources, would want to participate in
those efforts. Additionally, DoD lacks a reliable repository of all existing
family of systems information.

Audit Response. USJFCOM had not documented that it lacked:

       •   resources needed to fulfill its responsibility for assessing
           interoperability requirements for proposed DoD weapon systems or

       •   a reliable repository of all existing family of systems information.

USJFCOM should be proactive in acquiring additional resources to ensure the
interoperability of systems and to establish a reliable repository of all existing
family of systems information, as specified in Section 922, Public Law 105-261,
discussed above.

Proposed System ORD Comparison. The Inspector General stated that
subject-matter experts were not required or authorized to compare the proposed
system ORD against the ORDs of the systems with which it must interoperate.
Further, the development of ORDs was the excusive role of the Military
Departments and Defense agencies and, even though USJFCOM did have a role
in the review process, approval was the responsibility of the Joint Requirements
Oversight Council. The report misinterpreted what the actual role of
USJFCOM was in the process and grossly overstated the requirements for
USJFCOM. However, USJFCOM did concur that, with additional resources, it
could improve the interoperability effort in many areas; however, those areas
were not its assigned tasks and were unfunded.

Audit Response. The USJFCOM has the authority to obtain additional
resources to improve interoperability throughout DoD. The Joint Staff’s
“Unified Command Plan 1999,” emphasizes the role of USJFCOM as the chief
advocate of jointness and the importance of enhancing jointness and
interoperability throughout DoD. As part of its role in transforming U.S.
Armed Forces to meet the security challenges of the 21st century, USJFCOM
has the responsibility to support the development and integration of fully
interoperable systems and capabilities, including C4I surveillance and


                                    57
reconnaissance. Further, the sense of Congress, as expressed in Section 922,
Public Law 105-261 encourages a combatant commander, such as USJFCOM,
to be proactive in obtaining appropriate and sufficient resources to fulfill its
responsibility for assessing interoperability requirements of proposed DoD
weapon systems to enable the warfighter to have interoperable systems.

Joint Perspective. The Inspector General suggested that another
recommendation be added to Recommendation 4. Specifically, he proposed
that the Director, Command, Control, Communications, and Computers
Systems Directorate (J-6), Office of the Chairman of the Joint Chiefs of Staff:
           Provide a joint perspective as the Chairman’s advocate for
           interoperability and integration, to team with the Joint Warfighting
           Capability Assessments (JWCAs) in developing Joint Mission Area
           Architectures.

The Inspector General suggested the new recommendation because joint mission
area architectures are key to determining the usefulness of systems within DoD.
Further, as the warfighters advocate for interoperability and integration,
USJFCOM should participate in the architecture process to ensure that
warfighter needs and interests are met.

Audit Response. The report did not address the merits of a joint perspective
interaction with joint warfighting capability assessments when developing joint
mission area architectures. However, we will consider addressing that joint
perspective issue when reviewing interoperability and information assurance
policies at the unified command level, in a subsequent audit.

Comparison of Requirement Documents. The Inspector General suggested
that another recommendation be added to Recommendation 4. Specifically, he
proposed that the Director, Command, Control, Communications, and
Computers Systems Directorate (J-6), Office of the Chairman of the Joint Chiefs
of Staff:
           Compare requirement documents of proposed DoD systems within
           JMA [joint mission area] Architectures, as they are completed,
           against the other requirement documents in their related Joint Mission
           Area Architecture to verify the completeness of stated interoperability
           requirements.

The Inspector General provided the same rationale for this recommendation as
he gave for his recommendation to provide a joint perspective, as discussed
above.

Audit Response. The report did not specifically address the comparison of
requirement documents of proposed DoD systems within joint mission area
architectures against the other requirement documents in their related joint
mission area architecture(s). However, we will consider addressing that
comparison issue when reviewing interoperability and information assurance
policies at the unified command level, in a subsequent audit.



                                        58
Defense Information Systems Agency Comments on Finding
  and Audit Response
    The Inspector General, Defense Information Systems Agency commented on
    DoD interoperability policy, the Interoperability Watch List, inconsistent DoD
    policy, conformance with Joint Chiefs of Staff policy, interoperability analysis,
    access to the JCPAT database, and interoperability certification. In addition,
    the Inspector General suggested some editorial changes that we considered and
    made where deemed appropriate.

    DoD Interoperability Policy. The Inspector General stated that DoD
    Directive 4630.5 and DoD Instruction 4630.8 establish DoD interoperability
    policy and that:

           •   the Office of the Under Secretary of Defense for Acquisition,
               Technology, and Logistics implemented its interoperability
               responsibilities in DoD Directive 4630.5 and DoD
               Regulation 5000.2-R, and

           •   the Joint Staff implemented its interoperability responsibilities in
               Chairman of the Joint Chiefs of Staff Instructions 3170.01B and
               6212.01B.

    Further, while ASD(C3I) was revising DoD Directive 4630.5, the Joint Staff
    rewrote Chairman of the Joint Chiefs of Staff Instruction 6212.01B, which
    incorporated the intended changes to DoD Directive 4630.5 before its release in
    January 2002. In addition, the ASD(C3I), as a staff element of the Office of the
    Secretary of Defense, should be a higher authority than the Joint Chiefs of Staff.
    Therefore, the Inspector General stated that the report criticism could be that
    DoD Directive 4630.5 and DoD Instruction 4630.8 were outdated because of
    developments in architecture frameworks and acquisition documents.
    Alternatively, one could say, with equal validity, that Chairman of the Joint
    Chiefs of Staff Instruction 6212.01B:

           •   was prematurely issued because it was in conflict with DoD
               Directive 4630.5 and DoD Instruction 4630.8 and

           •   lacked the authority of DoD Directive 4630.5 and DoD
               Instruction 4630.8 for the changes.

    Audit Response. The Joint Chiefs of Staff were proactive. The Office of the
    ASD(C3I) guidance had not been updated for 10 years. As the Inspector
    General stated, DoD Directive 4630.5 and DoD Instruction 4630.8 were
    partially outdated because of developments in architecture frameworks and
    acquisition documents.

    Interoperability Watch List. The Inspector General stated that DoD
    Instruction 4630.8 did not specifically require the Director, Operational Test
    and Evaluation to establish criteria for placing DoD weapon systems in the


                                        59
development phase of the acquisition process on the Interoperability Watch List.
Further, the Interoperability Senior Review Panel was addressing the process for
the Interoperability Watch List and had identified a process for nominating
systems to the list. The Inspector General also stated that systems had been
nominated for the Interoperability Watch List, but none were actually put on the
List to date.

Audit Response. As evidenced in the report, without specific criteria for
placing DoD weapon systems on the Interoperability Watch List, the Office of
the Secretary of Defense, the Joint Staff, the Defense agencies, and the Military
Departments have not placed any DoD weapon systems on the List. This
occurred even though the Director, Operational Test and Evaluation cited
interoperability testing concerns for 21 DoD systems in the FY 2001 Annual
Test Report.

Inconsistent DoD Policy. The Inspector General stated that the Defense
Information Systems Agency did not believe that the DoD policy is inconsistent,
but rather that the release dates for revision of the various documents were not
as coordinated as possible. Further, the contents of the various documents were
coordinated and are now synchronized and undergoing another review and
update cycle.

Audit Response. Whether or not the release dates for revision of the various
documents were coordinated, DoD Directive 4630.5 and DoD
Instruction 4630.8 were outdated because of developments in architecture
frameworks and acquisition documents over the 10-year period between
document updates.

Conformance with Joint Chiefs of Staff Policy. The Inspector General stated
that Joint Chiefs of Staff policy and instruction should conform to ASD(C3I)
guidance, not the other way around.

Audit Response. We agree; however, the Joint Staff was proactive in
implementing agreed-upon policy needed because of developments in
architecture frameworks and acquisition documents.

Interoperability Analysis. The Inspector General recommended revising the
report’s statements about the interoperability process because the ORD review
process requires the originator to identify a proposed system’s interoperability
requirements in the context of the other systems with which it must interoperate.

Audit Response. Combat developers have neither a complete database of all
DoD requirement and acquisition documents nor access to all joint mission area
architectures to use as a reference when developing ORD interoperability
requirements. Accordingly, USJFCOM has an important role in ensuring that
interoperability requirements are fully defined in the ORD review process.

Access to JCPAT Database. The Inspector General stated that the
third sentence under the subheading, “Access to Database,” indicated that of
756 users, 15 were contractor support personnel, and that the fourth sentence


                                   60
    indicated that DISA could identify the total number of users but could not
    distinguish DoD from contractor personnel. He concluded that both statements
    could not be correct.

    Audit Response. The Inspector General was citing statements from the
    discussion draft of this report, not the draft report. We revised those statements
    before issuing the draft report.

    Interoperability Certification. The Inspector General stated that the phrase,
    “interoperability certification,” is ambiguous. Further, he stated that the Joint
    Staff issues interoperability certifications of requirements and supportability
    documents, which are two separate types of certifications, and issues system
    validation memoranda. He also stated that JITC issues system interoperability
    test certifications based on interoperability testing.

    Audit Response. Page 4, Footnote 2, of the report discussed the two separate
    types of interoperability certifications. In response to the management
    comments, we added the term, “Interoperability Certification Process,” to
    Appendix B, “Definitions of Technical Terms.”

Joint Staff Comments on Finding and Audit Response
    The Director, Joint Staff commented on analyzing interoperability and
    information assurance requirements; updating the Joint Command, Control,
    Communications, Computers, and Intelligence Program Assessment Tool
    (JCPAT); conducting analytical or quantitative modeling and simulation;
    analyzing ORD requirements; comparing the proposed system ORD against the
    ORDs of the system with which it must interoperate; developing the Automated
    Commander-in-Chief Integrated System Tool; and maintaining the database. In
    addition, the Director suggested some editorial changes that we considered and
    made where deemed appropriate.

    Interoperability and Information Assurance Analysis. The Director provided
    comments similar to those made by the Inspector General, USJFCOM, for
    which we previously provided an audit response.

    JCPAT. The Director stated that the USJFCOM did not update the JCPAT
    database to include all interoperability certifications, TEMPs, and C4I support
    plans for DoD systems because those documents were in hard copy form and,
    therefore, impede interoperability certification. Further, the Director stated that
    the Joint Staff J-6 maintains a hard copy of programs and documents that
    predate the JCPAT.

    Audit Response. As indicated in the finding, the older documents in the
    JCPAT should be archived and all applicable documents should be incorporated
    into the JCPAT. Archiving and incorporating documents is important because
    other organizations outside the Joint Staff use the JCPAT to ensure that all
    information exchange requirements are encompassed in ORDs. Therefore, the



                                        61
JCPAT data need to be complete and accessible. The inclusion of C4I support
plans and TEMPs in the JCPAT database would help combat developers to more
fully review and determine system interoperability requirements.

Analytical or Quantitative Modeling and Simulation. The Director provided
comments similar to those made by the Inspector General, USJFCOM, for
which we previously provided an audit response.

ORD Requirements. The Director provided comments similar to those made
by the Inspector General, USJFCOM, for which we previously provided an
audit response.

Proposed System ORD Comparison. The Director provided comments similar
to those made by the Inspector General, USJFCOM, for which we previously
provided an audit response.

Automated Commander-in-Chief Integrated System Tool. The Director
stated that the recommended Automated Commander-in-Chief Integrated System
Tool was under development, and DoD had not accepted, approved, or certified
it. Further, he stated that USJFCOM could evaluate the usefulness of this or
any other tool that USJFCOM uses in the requirements process.

Audit Response. The report discusses the Automated Commander-in-Chief
Integrated System Tool only as a possible automated process to assist
USJFCOM in evaluating interoperability requirements in proposed ORDs.

Maintenance of the Database. The Director suggested revising the sentence
that discusses searching for interoperability certification documents in the
JCPAT database. He stated that the reason for the revision was because
requirements documents were submitted at each milestone. Further, the
Director stated that depending upon the milestone, a particular program may
have more than one document. He also stated that a reviewer would have to be
aware of the milestone and the date processed to determine the current
document. However, the Director stated that the Joint Staff agreed that the user
could not be assured that the document is the most recently approved or
validated document for Acquisition Category II and below documents. Further,
he stated that, because the Joint Requirements Oversight Council was a
validating authority, the Director, Force Structure, Resources, and Assessment
(J-8) post-validated Acquisition Category I or Joint Staff Issue programs to the
J-8 tool. The Director also stated that the validated documents are available in
both the J-6 and J-8 tools. In conclusion, he stated that recent changes to the J-6
JCPAT should alleviate the confusion concerning the availability of up-to-date
program documentation in the JCPAT database.

Audit Response. Even though the Director stated that the validated documents
are available in the J-6 and J-8 tools and that recent changes to the J-6 JCPAT
should alleviate the confusion concerning the availability of up-to-date program
documentation, the user needs assurance that the document located in the
JCPAT database is the most recently certified document. Therefore, DISA



                                    62
    needs to archive outdated versions of documents so that users can locate and
    obtain the most up-to-date approved documents for making interoperability
    determinations for DoD systems.

Interoperability Senior Review Panel Comments on Finding
   and Audit Response
    The Co-Chair, Interoperability Senior Review Panel stated that the
    Interoperability Senior Review Panel consists of senior leaders from the Offices
    of the Under Secretary of Defense for Acquisition, Technology, and Logistics;
    the ASD(C3I); the Joint Staff; U.S. Joint Forces Command; the Director for
    Programs, Analysis, and Evaluation; and the Director, Operational Test and
    Evaluation. He recognized that the primary objective of this report was to
    evaluate the Office of the Secretary of Defense and the Defense agencies’
    implementation of DoD interoperability and information assurance policies, but
    he stated that the report did not address the issue that DoD is not structured to
    organize, train, and equip required joint capabilities. The Co-Chair also stated
    that the Military Departments determine requirements and then resource those
    requirements based on their individual priorities instead of joint priorities.
    Further, the Co-Chair stated that interoperability and information assurance for
    information technology and national security systems should be viewed in the
    wider context of doctrine, organization, training, material, leadership
    development, personnel, and facilities instead of only system of systems context
    or family of systems context, or both. He concluded that joint interoperability
    requires a synchronized effort and resources across the entire doctrine,
    organization, training, material, leadership development, personnel, and
    facilities spectrum.

    Audit Response. As the Co-Chair noted, the report did not address whether
    DoD is structured to organize, train, and equip required joint capabilities.
    However, we will consider addressing that structuring issue in a subsequent
    audit when we review interoperability and information assurance policies at the
    unified command level. Because certain recommendations required a
    synchronized effort and resources, we redirected those recommendations to the
    Co-Chair to coordinate corrective actions to implement policies.




                                        63
Appendix J. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Acquisition Initiatives)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff
   Director for Command, Control, Communications, and Computers Systems (J-6)
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Information Systems Agency
   Commander, Joint Interoperability Test Command




                                          64
Non-Defense Federal Organization
Office of Management and Budget
  Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         65
___________________________________________________________________



Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page 15




                                                                      Revised
                                                                      Page 15




                                                                      Revised
                                                                      Page 17




                             67
___________________________________________________________________




                             68
___________________________________________________________________



Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                             69
___________________________________________________________________




                             70
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page i

                                                                      Page 5


                                                                      Revised
                                                                      Page 8




                                                                      Page 12




                                                                      Page 15




                             71
               ___________________________________________________________________




Final Report
 Reference




Page 22




                                            72
___________________________________________________________________



U.S. Joint Forces Command Comments




                             73
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 21




Page 23




Page 4




Page 8




                                            74
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 8




                             75
               ___________________________________________________________________




Final Report
 Reference




Page 9




Page 21




                                            76
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page 21




                                                                      Page 58




                                                                      Page 58




                             77
               ___________________________________________________________________




Final Report
 Reference




Page 23




                                            78
___________________________________________________________________



Director, Operational Test and Evaluation,
Comments




                             79
___________________________________________________________________




                             80
___________________________________________________________________



Defense Information Systems Agency Comments




                             81
               ___________________________________________________________________




Final Report
 Reference




Page 4




Page 5




                                            82
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 5




                                                                      Revised
                                                                      Page 5




                                                                      Page 7




                                                                      Page 7



                                                                      Page 8




                                                                      Page 10




                             83
               ___________________________________________________________________




Final Report
 Reference




Page 11




Revised
Page 4




Page 29




Revised
Page 64




                                            84
___________________________________________________________________



Joint Staff Comments




                             85
               ___________________________________________________________________




Final Report
 Reference




Page 4




Page 4




Page 8




                                            86
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 8
                                                                      Paragraph 2




                                                                      Page 8
                                                                      Paragraph 3




                             87
               ___________________________________________________________________




Final Report
 Reference




Page 9




Page 9




Page 10




Page 17




                                            88
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 18




                                                                      Page 21




                                                                      Revised
                                                                      Page 21




                                                                      Revised
                                                                      Page 24




                             89
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 25




Revised
Page 50




                                            90
___________________________________________________________________



Interoperability Senior Review Panel Comments




                             91
___________________________________________________________________




                             92
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

       Mary L. Ugone
       John E. Meling
       Jack D. Snider
       Mark E. Stephens
       Kevin W. Klein
       Trisha L. Staley
       Kelly R. Veith
       Jacqueline N. Pugh
